<html>
<title> - NOMINATION OF ANDREW M. SAUL, TO BE COMMISSIONER, SOCIAL SECURITY ADMINISTRATION</title>
<body><pre>[Senate Hearing 115-840]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-840

                      NOMINATION OF ANDREW M. SAUL

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                 ON THE

                             NOMINATION OF

                  ANDREW M. SAUL, TO BE COMMISSIONER, 
                     SOCIAL SECURITY ADMINISTRATION

                               __________

                            OCTOBER 2, 2018

                               __________


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                     
                                     

            Printed for the use of the Committee on Finance

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-924-PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    DEBBIE STABENOW, Michigan
PAT ROBERTS, Kansas                  MARIA CANTWELL, Washington
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            CLAIRE McCASKILL, Missouri
BILL CASSIDY, Louisiana              SHELDON WHITEHOUSE, Rhode Island

           Jeffrey Wrase, Staff Director and Chief Economist

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     2

                         ADMINISTRATION NOMINEE

Saul, Hon. Andrew M., nominated to be Commissioner, Social 
  Security Administration, Baltimore, MD.........................     5

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    23
Saul, Hon. Andrew M.:
    Testimony....................................................     5
    Prepared statement...........................................    24
    Biographical information.....................................    25
    Responses to questions from committee members................    36
Wyden, Hon. Ron:
    Opening statement............................................     2
    Prepared statement...........................................    57

                             Communication

Consumer First Coalition.........................................    59

                                 (iii)

 
                     NOMINATION OF ANDREW M. SAUL,
                          TO BE COMMISSIONER,
                     SOCIAL SECURITY ADMINISTRATION

                              ----------                              


                        TUESDAY, OCTOBER 2, 2018

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:34 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.
    Present: Senators Thune, Toomey, Scott, Wyden, Menendez, 
Carper, Bennet, Casey, McCaskill, and Whitehouse.
    Also present: Republican staff: Jeffrey Wrase, Staff 
Director and Chief Economist; Nicholas Wyatt, Nominations and 
Tax Professional Staff Member; and David Timmons, Detailee. 
Democratic staff: Joshua Sheinkman, Staff Director; Michael 
Evans, Chief Counsel; Tom Klouda, Senior Domestic Policy 
Advisor; Ian Nicholson, Investigator; Sam Conchuratt, Assistant 
to the Staff Director; and Hyacinth Hinojosa, Policy Advisor.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. Good morning. I would like to welcome 
everyone to today's hearing.
    This morning we are meeting to discuss the nomination of 
Andrew Saul to be Commissioner of Social Security. This is a 
long-overdue nomination.
    Mr. Saul, if confirmed, you will become the first confirmed 
Commissioner at the Social Security Administration since 2013. 
I believe that most, if not all, of my colleagues here agree 
that having a confirmed Commissioner and sustained leadership 
will benefit the Social Security Administration, its 
operations, its employees, and the American people who rely 
upon the Social Security checks arriving on time.
    Now, Mr. Saul, if confirmed, you will be taking charge of 
an agency facing many challenges, including persistent 
information technology modernization issues and large work 
backlogs. Last week I laid out some of these challenges at a 
nomination hearing for another important position at the 
agency.
    This agency needs someone in charge to help reduce 
disability determination backlogs and workload backlogs. Those 
backlogs at the Social Security Administration are unacceptable 
to many, if not most of us, here in the Senate, and are not 
fair for the American people and Social Security beneficiaries. 
Operational issues at the agency need your immediate attention. 
And we look forward to your leadership in addressing them.
    I am pleased to see in your background, Mr. Saul, that you 
have decades of experience in both financial decision-making 
and in successfully managing and growing organizations. I 
believe that this experience helped you understand that you 
cannot run the Social Security Administration by spending all 
of your time in Woodlawn, MD and DC. Understanding what is 
happening in the field and regional offices is critical in the 
role of executive leader of this particular agency.
    Before turning to my friend, Ranking Member Wyden, let me 
briefly address the fact that the President has nominated Mr. 
Saul to serve the remainder of the 6-year term that expires 
January 19, 2019, and also to serve the following 6-year term 
that expires January 19, 2025.
    We will be considering the first nomination today to serve 
the remainder of the 6-year term that expires January 19, 2019. 
Today's hearing will not consider the second nomination, which 
involves service for the following 6-year term that expires 
January 19, 2025.
    Let me be clear that we are not considering the second 
nomination with respect to Senate procedure and not with 
respect to your qualifications to serve, which we all admire 
and acknowledge. In particular, the second nomination would 
involve the Senate acting on a nomination which strictly 
speaking would be properly before the next Senate.
    Setting a Senate precedent that we could consider a 
possible sequence of future terms could bind future Senators 
improperly. Therefore, we will not be setting such a precedent 
today. Once again, to be clear, the issue is Senate procedure 
and precedent. The issue is not whether you would be qualified 
to serve as Social Security Commissioner for both the duration 
of this term and the following 6-year term.
    I am confident and I expect that, if you are confirmed 
today for the first nomination, your nomination before the 
116th Congress will be taken up as promptly as possible next 
year.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]
    The Chairman. With that, I am going to turn to my partner 
on this committee as ranking member, Senator Wyden, for his 
opening remarks.

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. I look 
forward to working with you, and, noting that you are retiring 
at the end of this term, I hope we can find a way to proceed in 
a bipartisan fashion on some important issues the way we did on 
CHIP and foster care and chronic care and other issues.
    Now today, the Finance Committee is going to consider the 
nomination of Andrew Saul to serve as Commissioner of the 
Social Security Administration. It goes without saying that 
this position is one of the most important posts in the Federal 
Government.
    It is responsible for administering benefits to over 69 
million seniors, people with disabilities, and other Americans 
who earned their Social Security after working for years and 
paying into the program with every paycheck.
    Mr. Saul's nomination comes before the committee at a 
critical moment. Middle-class paychecks are not keeping up with 
rising living expenses and health-care costs, making saving for 
retirement even tougher for many workers.
    That means Social Security is more important than ever when 
it comes to ensuring all Americans have a secure retirement 
without having to worry about financial destitution. That is 
especially true for women who, in many circumstances, are 
working multiple jobs while also raising children, sometimes on 
their own.
    A recent study showed that women have an average of half 
the retirement savings that men do. That gap means hard times 
for women in their later years: women aged 65 and older are 80 
percent more likely than men to be in poverty.
    My own parents were divorced when I was young and, to a 
great extent, my mother raised my late brother and I. Despite 
having a master's degree, she always seemed to take home less 
pay than men doing the same job. She was not alone. That is 
another reason why it is so important that women get a fair 
shake when it comes to retirement and Social Security.
    When it comes to the future of Social Security, the program 
can pay full benefits through 2034 and 79 percent of benefits 
after 2034. There has been an effort from some of the 
President's top economic advisors to portray this as a crisis 
and insist that drastic changes are needed and benefits need to 
be cut.
    So let me be clear to colleagues today: cuts to Social 
Security are the exact opposite of what is needed now. 
Increasing the retirement age, transforming Social Security 
from a secured defined benefit to a privatized scheme that puts 
vital benefits at risk--these are harmful ideas that are going 
to make it harder for seniors and vulnerable Americans to live 
full lives after years of hard work.
    I am going to go to the mat to prevent harmful attacks on 
Social Security. Instead, the Congress ought to focus on ways 
to improve the program and ensure that all Americans can enjoy 
a secure retirement.
    If Mr. Saul is confirmed to a full 6-year term, he will be 
managing the nuts and bolts of Social Security as this 
important debate takes place. But there is also work to be done 
now to ensure Social Security works for Americans who count on 
its benefits right now.
    Today, too many who seek benefits are stuck in a kind of 
bureaucratic La La Land. Nearly a million Americans are waiting 
as the Social Security Administration considers appeals of 
their eligibility. This backlog of disability cases means 
people often wait more than a year or longer for a decision.
    This is unacceptable. Recently the Congress has done better 
when it comes to funding the agency, and the backlog has 
improved.
    I want to thank Senator Brown and others for pushing hard 
for these resources in recent appropriations bills. It is going 
to be important to see results, though, before anybody declares 
``mission accomplished.'' Too many Americans wait for help 
instead of getting the service they paid for and deserve.
    The Commissioner--and we talked about this--needs to make 
it very clear, perhaps with a weekly update on the front page 
of the agency's website, about the average waiting time that 
faces those we have the honor to represent.
    Now, Social Security has made real progress to modernize 
its information technology. Earlier this year, the Government 
Accountability Office said that the agency had made the most 
progress of any agency when it came to managing information 
technology.
    This is the critical task for every Federal agency at a 
time when data theft is rampant. More vulnerabilities and 
opportunities for cyber-crime crop up every day. Americans have 
made it clear that privacy is paramount, and Social Security 
cannot fall short when it comes to protecting personal 
information.
    On a positive note, the agency's disability case processing 
system has received positive reviews from the employees that 
use the system each day to help people. But to paraphrase 
President Lincoln--and Senator Brown, who tells us this often 
at these hearings--the ``public opinion bath'' is needed to 
verify that it is leading to better service and less waiting.
    Finally, if confirmed, Mr. Saul will be the first confirmed 
head of Social Security since 2013. It is unfortunate there has 
been such a delay, and that delay has taken a real toll. 
Without a confirmed leader, the agency cannot create and 
execute a long-term vision of how to improve the program.
    On a practical level, an acting leader cannot hire 
qualified people from outside the agency into senior executive 
service positions, such as the person who would be in charge of 
information technology, security, or the head of the agency's 
more than 1,200 field offices. Our country deserves the best 
talent at Social Security. This barrier needs to be removed.
    I also want to conclude by touching on the issue the 
chairman raised about taking up only the first nomination. The 
White House nominated Mr. Saul for two consecutive terms: one 
for the remainder of the current term ending on January 19, 
2019, and one for the succeeding term beginning the next day.
    If the Finance Committee were to vote on the second 
nomination, it would be acting during this Congress to fill a 
vacancy that does not occur until the next Congress. That would 
up-end the whole notion of Senators' advise and consent on a 
contemporaneous nomination of officials who are running key 
parts of the government. It would be unprecedented. I think it 
could also expose the Commissioner to legal challenges.
    So, the chairman and I have reached an agreement to wait on 
that future term until the next Congress. For my part, Mr. 
Saul, if confirmed this year, I will support taking up the 
second nomination without delay in the next Congress.
    I want to thank Mr. Saul for the conversations that we had 
privately and for coming today.
    Mr. Chairman, I look forward to working with you.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. Well, thank you, Senator.
    I would now like to introduce our nominee, Mr. Andrew Saul.
    Mr. Saul is currently a partner with Saul Partners LP. He 
has had over 30 years of experience in the private sector 
leading organizations such as Brooks Fashion Stores and Cache. 
Mr. Saul also served as Chairman of the Federal Retirement 
Thrift Investment Board for almost 10 years, including 3 years 
under President Obama.
    While Chairman of the Federal Thrift Board, my 
understanding is that you cleaned up a lot of messes, fixed 
some IT issues, and improved the financial position of the 
Thrift Savings Plan, which led to greater retirement security 
for many savers.
    In addition to your private-sector experience, you have 
dedicated much of your life to community service, including at 
the Icahn School of Medicine at Mount Sinai Medical Center, the 
Metropolitan Museum of Art, the National Gallery of Art, the 
United Jewish Appeal Federation of New York, and the Sarah 
Neuman Nursing Home. You earned your bachelor's degree from the 
Wharton School of Finance at the University of Pennsylvania.
    Mr. Saul, I believe you are well-qualified to serve as 
Commissioner of the Social Security Administration. I 
personally look forward to hearing more from you here today. So 
we are looking forward to listening to you and hopefully 
getting your confirmation through as quickly as possible.
    So with that, we will turn the time over to you, Mr. Saul.

STATEMENT OF HON. ANDREW M. SAUL, NOMINATED TO BE COMMISSIONER, 
         SOCIAL SECURITY ADMINISTRATION, BALTIMORE, MD

    Mr. Saul. Well, thank you very much. Chairman Hatch, 
Ranking Member Wyden, members of the committee, thank you for 
the opportunity to appear before you today.
    My name is Andrew Saul, and I am honored to be here. I want 
to thank the President for nominating me to serve as 
Commissioner of the Social Security Administration.
    The Social Security programs touch the lives of almost 
every American. Being nominated to this position is a 
tremendous privilege and an awesome responsibility. I am 
humbled by the opportunity to help the agency deliver critical 
service to the American people.
    I would like to introduce my wife of 50 years, my two 
daughters, and my two sons-in-law, who are sitting right behind 
me.
    I am fortunate to have had a long, successful career, both 
in public service and in the private sector, and to have been 
able to serve in non-profit organizations. My experience will 
serve me well, should I be confirmed.
    I have worked as Vice Chairman and Chairman of the Finance 
Committee of the Metropolitan Transportation Authority, New 
York's regional transportation system and our Nation's largest 
public transportation network. As Chairman, I have been 
intimately involved in the budget, procurement, and public 
financing issues related to running a $20-billion operation.
    I have also served as vice chairman of the Mount Sinai 
Health System and long-time chairman of the Audit and 
Compliance Committee. Mount Sinai, located in New York City, is 
one of our Nation's largest health systems. In addition, I have 
served as trustee and chairman of the Audit Committee of the 
National Gallery of Art.
    In these roles, I have learned a great deal about how to 
audit and monitor large institutions to ensure that operations 
are transparent and dollars well-spent. My work at Mount Sinai 
has also afforded an up-close view of health-care institutions, 
systems, and delivery of services.
    I started my career in the private sector. I worked for 20 
years growing and managing two large publicly traded apparel 
chains. Under my management, these chains grew into national 
retailers, including hundreds of stores employing thousands of 
workers.
    The operational challenges I faced there are similar to 
those facing SSA. I understand the importance of having modern 
systems that allow these retail locations to be connected to a 
national center. I worked hard to build a senior executive core 
from within and train our employees from the ground up. 
Servicing the consumer is the key to success in the retail 
business.
    But I am most proud of my work with the Federal Thrift 
Investment Board. President Bush nominated me, and I was 
confirmed by the Senate to be Chairman of the Federal Thrift 
Investment Board. The Board administers the Thrift Savings 
Plan, which provides military and Federal employees the 
opportunity to save for additional retirement security.
    When I took over as Chairman, the systems of the Board were 
in bad shape. I worked hard to lead the Board to modernize its 
systems and technologies and to restructure the executive staff 
and personnel functions.
    During my chairmanship, the FTIB introduced the popular 
life cycle funds, which provide automatic, professionally 
designed asset allocation. In addition to increasing investment 
offerings, we increased TSP participation and simultaneously 
and substantially reduced participants' costs.
    We improved the TSP website and made it, along with toll-
free telephone service centers, user-friendly options for 
service and up-to-date information.
    Today the TSP is a very different plan than it was in 2002. 
It is considered one of the most successful 401(k) plans in the 
Nation.
    I consider my work there to be one of my greatest life-time 
accomplishments. When President Bush left office, President 
Obama asked me to continue as Chairman. I did not hesitate to 
agree.
    I am grateful for the opportunity to serve as Commissioner 
of Social Security. I know the SSA is filled with people who 
are dedicated to the mission of serving millions of Americans, 
but I know that the agency also needs leadership and increased 
executive accountability. If confirmed, I will work to help the 
SSA to have the right organization to serve and be responsive 
to the American public and millions of beneficiaries.
    I will work to improve the disability adjudication process 
to reduce both the appeals backlog and wait times, which are 
unacceptable. And finally, I will make sure the SSA systems are 
modern and updated, as I did with the Thrift Investment Board.
    Thank you for the opportunity to talk to you, and I look 
forward to working with you. I am happy now to take your 
questions.
    The Chairman. Well, thank you so much. We are so happy to 
have you here and happy you are willing to do this very 
important work.
    [The prepared statement of Mr. Saul appears in the 
appendix.]
    The Chairman. Now I have some obligatory questions that I 
ask all nominees.
    First, is there anything in your background that might 
present a conflict of interest with the duties of the office to 
which you have been nominated?
    Mr. Saul. No, sir.
    The Chairman. Okay.
    Do you know of any reason, personal or otherwise, that 
would in any way prevent you from fully and honorably 
discharging the responsibilities of the office to which you 
have been nominated?
    Mr. Saul. No, sir.
    The Chairman. Do you agree, without reservation, to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of the Congress, if you are confirmed?
    Mr. Saul. Yes, sir.
    The Chairman. Finally, do you commit to provide a proper 
response in writing to any questions addressed to you by any 
Senator of this committee?
    Mr. Saul. Yes, sir.
    The Chairman. Well, thank you.
    Mr. Saul, in some of your private-sector work, you ran some 
companies that likely had main headquarter offices, but also 
had numerous stores or outlets. Similarly, and considering 
being Commissioner of Social Security, you will be working at a 
headquarters office in Woodlawn, MD, as well as in DC, but you 
would also have to attend to operations of numerous regional 
and field offices.
    Drawing from your experiences in the private sector, do you 
believe that it will be a value to have regular contacts with 
the ``boots on the ground'' field office workers and the 
beneficiaries they serve?
    Mr. Saul. Well, Senator, if I am confirmed as Commissioner, 
my motto at the SSA will be to bring service to the 
beneficiaries. As you said, I have been in the retail business 
most of my life, and the lifeblood of the retail business is to 
serve the consumer. And it is very similar to the situation 
that we have at SSA.
    In the retail business, we had thousands--at one time--
outlets spread around the United States, in almost all 50 
States, and the ability to service the customer in all these 
far-flung locations was crucial to the success of any retailer. 
And I believe, if I am confirmed as Commissioner of Social 
Security, my primary job will be to service the beneficiaries. 
And that means the people who are out in the district offices 
as well as on the Internet, the website.
    The Chairman. Well, thank you.
    Mr. Saul, during budget discussions over agency funding 
during the Obama administration, political appointees at the 
Social Security Administration or SSA had manipulated and 
cherry-picked data about SSA's budget to the authorizing 
committees, appropriators, and various advocacy groups. Numbers 
were put out that I spent literally years trying to corroborate 
yet could not, even using data supplied by SSA itself.
    Eventually SSA essentially conceded that some unnamed 
political appointee or appointees had likely misstated budget 
data, and I believe politics drove the misstatements. Now, make 
no mistakes, when it comes to Social Security, there is plenty 
of politicking that takes place.
    Mr. Saul, if confirmed, will you work with the Congress to 
ensure that we can believe the numbers that come out of the 
Social Security Administration and that your focus will be on 
delivering the best service possible to beneficiaries and 
program participants?
    Mr. Saul. If I am confirmed, Mr. Chairman, the most 
important thing, as I said, will be to provide efficient and 
transparent services to all the beneficiaries. And I assure you 
that the transparency that I talked about will be evident in my 
relationship with all the legislative oversight committees.
    The Chairman. Well, thank you.
    Mr. Saul, for many years there has been concern about 
efforts at SSA to update information, and information 
technology or IT. In the not-distant past, SSA essentially 
wasted hundreds of millions of dollars on projects that went 
nowhere.
    Toward the end of the Obama administration, some new 
approaches were tried, and those trials continue to this day. 
It remains to be seen if they will prove successful. Yet when 
it comes to sometimes complex systems such as the IT systems at 
SSA, a great deal of technological sophistication is necessary. 
And that is where specialization comes in.
    In looking at changes to IT systems--and given that you 
will likely hear from people internal to SSA about what the 
best solutions are, and you will hear from outside companies--
how would you go about evaluating these companies or those 
company claims and deciding on what would be the best way for 
an IT project at SSA to go?
    Mr. Saul. Well, as I said, Mr. Chairman, in my previous 
experience at the Federal Retirement Board, I inherited a 
completely failed system that basically was not functional at 
the time I took over as Chairman. We had major lawsuits, and we 
had to clean up a failed system with over a $100-million loss 
to the taxpayers with nothing to show.
    I am very aware what can go wrong in a big government 
agency if these systems are not well thought-out.
    So one of my primary tasks in the first 6 months or a year 
will be to sit down and review the modernization plan that is 
in place at the Social Security Administration from top to 
bottom. I want to be sure that what we are doing is going to 
work for the present and for the future, in the interests of 
the beneficiaries.
    I consider this to be one of the most important parts of my 
job, if I am successfully confirmed.
    The Chairman. Well, thank you.
    My time is up. I will turn to my partner, Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Saul, for 7 years I was director of the Oregon Gray 
Panthers before I was elected to Congress. So I have been in a 
lot of Social Security offices over the years.
    What I saw a few weeks ago really bothered me. I arrived 
before the office opened. There was a line of people that 
stretched around the building.
    And we followed up, and people all came back and said these 
long waits are common. Of course, face-to-face in a field 
office is one of the key ways to secure your rights, in 
addition to online and by mobile.
    And here is my question. On the backlog, the previous two 
Commissioners promised to fix the problem, and it has not been 
fixed. So what are you going to do differently to actually fix 
it so we will not see what I saw just a couple of weeks ago 
when I visited a field office?
    Mr. Saul. Well, the first thing I would like to comment on 
is the field offices, Senator, if I might. As I said, I 
understand that the field office is where the rubber meets the 
road.
    When you talk about service to the beneficiaries, there is 
nothing more important than the personal contact in these 
1,200-plus offices spread throughout our Nation. So I will, 
number one, as I promised you, get out not only to Oregon, but 
into many locations around the country. Before I know what I 
can do, I believe I am going to have to really get out there 
and see what the problems are, as you experienced in Oregon.
    I seriously mean that. And I did that at the retail 
business. I spent so much of my time out in the stores seeing 
the interplay with the customers. And that is what I think is 
going to be paramount to deliver the service.
    Senator Wyden. So will you commit this morning to 
maintaining the field office option for the many seniors and 
many Americans who need or want to meet with an actual person?
    Mr. Saul. If I am confirmed, I will be very careful how we 
deal with the existing field offices.
    I can----
    Senator Wyden. That is different than saying, as I hoped, 
``On my watch, we are not going to lose these critical 
opportunities for serving our constituents.''
    Mr. Saul. I can promise you, Senator, that I will go out 
there, and before any decisions are made in any of the field 
offices, I will understand what the conditions are there in 
that locale, and nothing will be done without my okay.
    Senator Wyden. I told you also that I hoped that you would 
visit the hearing office in Eugene, OR, which has one of the 
worst backlogs in the country, days and days longer than the 
national average. So I hope that you will do that.
    Mr. Saul. I made a commitment, Senator, and I hope you will 
join me there. But we will be out, and we will be in Eugene.
    Senator Wyden. Count on it.
    Okay. I want to get your position on Social Security 
privatization, because you were a board member of a very 
prominent think tank that was all gung-ho for President George 
W. Bush's effort to privatize Social Security.
    Did you support efforts to privatize Social Security during 
the Bush administration?
    Mr. Saul. Senator, I became involved in the Manhattan 
Institute when I was Vice Chairman and the Westchester County 
Commissioner at the MTA.
    The Manhattan Institute was dedicated to efficient local 
and State government. And that is what interests me being so--
--
    Senator Wyden. But you did not support efforts to privatize 
Social Security during the Bush administration?
    Mr. Saul. No, sir.
    Senator Wyden. Great. Do you support efforts to privatize 
Social Security now?
    Mr. Saul. My job, if I am confirmed as Commissioner, 
Senator, is to deliver services to the beneficiary.
    I believe something like privatization should be left for 
the Treasury Department and for the legislative branch. I am 
the manager of the agency, and that is what I will dedicate my 
time to.
    Senator Wyden. I want to ask just one other quick question, 
and that is about the agency's independent nonpartisan status.
    Do you pledge this morning that you will run the Social 
Security Administration in a nonpartisan way? Because you are 
going to see lots of politics. I mean we saw Larry Kudlow, the 
head of the National Economic Council, making comments about 
how, beginning in the next Congress, this was going to be one 
of his targets.
    So I want to make sure we are going to get a Commissioner 
who is going to be independent and nonpartisan. Will you pledge 
to that?
    Mr. Saul. Yes, sir.
    And may I just say one thing in answer to that?
    Senator Wyden. Of course.
    Mr. Saul. I think if you look at my record at the Federal 
Retirement Board, I ran that agency in a totally nonpartisan 
way. Again, I was there to serve the participants at the 
Retirement Board.
    And when President Bush's term was over, I was very proud 
that all 14 Federal unions had written a letter to President 
Obama and Senator Schumer--which I know has been distributed to 
you--requesting that I remain as Chairman. And I was called by 
the Obama personnel department and the Obama White House and 
asked to stay on.
    And in fact, after President Bush left, I stayed for 3\1/2\ 
years under the Obama administration, which to me is a 
testament to the fact that I ran a nonpartisan--totally 
nonpartisan--operation.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Scott?
    Senator Scott. Thank you, Mr. Chairman.
    Thank you, Mr. Saul, for being here this morning, and thank 
you for your time in my office last week. I truly appreciate 
that.
    Last May in a quiet neighborhood, the FBI arrested a man 
who was running a synthetic ID fraud farm. He had stolen over 
500 identities, mostly from children, to open over 750 credit 
card accounts.
    Synthetic ID fraud, during which a criminal steals a 
person's Social Security number and creates a new identity, is 
an $8-billion a year scam. That is why a bipartisan group of 
colleagues from this committee and I pushed my Protecting 
Children From Identity Theft Act.
    The legislation directs the SSA to make technology upgrades 
that will make it easier to stop synthetic ID fraud. The best 
part is that the taxpayers will not have to pick up the check.
    Mr. Saul, can you speak to the growing problem of synthetic 
ID fraud and how this legislation could be helpful? And will 
you commit to prioritizing enactment of such law?
    Mr. Saul. Well, Senator, as we discussed, I am aware of 
this very important part of the banking bill. I will support 
this totally. I think it is a win-win for everybody.
    As you said, in your remarks, this is being financed by the 
private sector.
    Senator Scott. Yes.
    Mr. Saul. And we are currently, as you know, doing this on 
a manual basis for select institutions. And I think to go 
nationwide with this thing is a terrific thing, and I am all in 
on this. You have my assurance.
    Senator Scott. Thank you, Mr. Saul.
    And thank you for understanding and appreciating the 
severity and the challenge that we face from an ID theft 
perspective.
    On the Social Security disability backlog, I am sure you 
will hear a lot of thoughts and comments and perhaps many 
questions on the importance of figuring out a better way for us 
to move forward. More than a million Americans are waiting for 
their hearing to see whether or not they qualify for disability 
benefits through Social Security.
    The average wait is around 2 years. For those folks who 
really need the benefit and are qualified for the benefit, we 
have to find a way to do it better.
    I would love to hear any ideas that you may have or that 
you are thinking about that would help shorten wait times. That 
is my first question.
    My second question is that it is nearly impossible for an 
organization the size of SSA to not fall victim to waste, 
fraud, and abuse. How can we figure out safeguards to protect 
taxpayers?
    Mr. Saul. Well, on the second question, I think in the long 
run, the only way you are going to be able to do this in such a 
large organization is through modern systems. That is why 
technology modernization is going to be so important for this 
agency.
    As I said to Senator Wyden, I expect to spend a tremendous 
amount of my time reviewing the whole systems that are 
currently in force. As far as the disability problem, nobody 
here, including myself--I do not think anybody is happy with 
the way this thing has been running. There are a lot of 
problems there. I do not claim to know the problems now. I have 
to get in there, Senator, and see what the problems are.
    And I take this very seriously--people having to wait 2 
years, people who really are in bad shape and need this help. 
So, one of my priorities along with the systems, and obviously 
the management, is going to be reviewing top to bottom the 
whole disability situation.
    And I cannot answer you that now, and I do not think you 
would expect me to. But I commit to this committee to spend the 
time necessary to get to the bottom of what is going on here. 
And we will fix the problem.
    Senator Scott. Thank you.
    My final question is based on the fact that we at some 
point have to have an honest conversation about the Social 
Security Trust Fund and how we keep kicking the can down the 
road as it relates to funding the challenges around its lack of 
liquidity and its ability to meet the obligations beyond 2032 
or 2037 or whenever the date is. We keep moving the date when 
the benefits could see a shortfall or have to be reduced.
    I would love to hear, after you have had some time on the 
job, about ways that we can avoid that cliff and perhaps even 
extend the health and the life of Social Security for those 
folks who have become very dependent on the benefit. I think it 
is incumbent upon us to start thinking about the future beyond 
2-year, or 4-year, or 6-year increments, but thinking about it 
from a generational perspective, and maybe even one day 
returning to an actuarially sound Social Security.
    Thank you.
    The Chairman. Okay.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Saul, congratulations on your nomination. Over 67 
million Americans rely on Social Security. Do you support the 
ideas and goals of Social Security?
    Mr. Saul. Absolutely. Totally.
    Senator Menendez. Okay.
    Now, I heard your response to Senator Wyden before with 
reference to the field offices, but if confirmed, will you 
commit to working with this committee to clear the Social 
Security backlog?
    Mr. Saul. Absolutely.
    Senator Menendez. In order to meet the growing number of 
recipients who will interact with the Social Security 
Administration--an estimated 10,000 baby boomers each day hit 
retirement age--will you ensure that the employees under your 
office are adequately supported?
    Mr. Saul. Yes. Well, one of the things, Senator, that we 
have not talked about yet is the whole personnel situation.
    As the chairman and the ranking member have stated, this is 
an agency that has not had confirmed management for a long 
time. And one of the other key items besides technology, which 
we talked about--and the whole disability problem--is the 
management structure of the organization. That is the other 
piece that I will be spending a tremendous amount of time on 
over the next, hopefully year, if I am confirmed, to ensure 
that the organization table that is currently in existence is 
correct for a modern and large organization such as SSA.
    I also want to be sure that we have the right people in the 
proper positions there. Then, the most important thing after 
that is to be sure that these people have a responsibility when 
they are given a job to be accountable to get it done. And that 
accountability is the service to the beneficiaries.
    Senator Menendez. I appreciate that answer. I appreciate 
management structure and accountability. I also understand that 
when you have 10,000 baby boomers a day who are moving into 
retirement age, that the demands on the Administration, the 
Social Security Administration, will be greater.
    So, after you do all of your management reviews, if you 
need to be properly resourced, I hope that you will pursue that 
as well.
    Mr. Saul. Senator, before I ask for any money, I want to 
make sure that we are spending the money that we have wisely. 
And I did that at the Retirement Board.
    But you can be sure if we need money after we have done 
this, I will be back here.
    Senator Menendez. Well, as a baby boomer who spent his 
entire life in public service, I am looking forward to, when it 
comes time, being efficiently treated.
    So you sat on the board of a think tank that has some 
troubling views of Social Security, blaming it for spiraling 
deficits, while ignoring the harm of deficit-busting tax plans 
that had a deficit as well. Do you share the same views as that 
think tank about Social Security?
    Mr. Saul. I joined the Manhattan Institute because I was 
very interested in the efficiency of State and local 
government. In 2002, when I became Chairman of the Federal 
Retirement Board, I basically terminated my involvement with 
the Manhattan Institute.
    I did not even realize at that time or now that they had 
done this much work on Social Security, because my interest 
there was State and local government and efficiency because of 
my activities, which was very important to me at the 
Metropolitan Transit Authority.
    Senator Menendez. So now knowing that they did, do you 
share those views?
    Mr. Saul. No. I believe that my job is to run this 
organization efficiently. I will leave those kind of issues to 
the legislative branch and to the Treasury Department, sir.
    Senator Menendez. Now, you mentioned in your statement that 
you will improve the disability adjudication process. Could you 
give me, for example, two quick bullets of what you think can 
be done to achieve that?
    Mr. Saul. I would rather not, because I really want to get 
in there and understand what is going on. It is not working 
well. There is no question about that. I realize the 
seriousness of it.
    As I said to Senator Scott, I realize there are a lot of 
problems there. But I want the opportunity, Senator, to get in, 
get out into the field--which we talked about--see what is 
going on, and then we will see what we have to do----
    Senator Menendez. Well, the processing time for these 
claims keeps increasing, even as the number of applications 
decreases each year.
    Mr. Saul. Right.
    Senator Menendez. That delta is certainly something that 
needs to be bridged.
    Mr. Saul. No, it is troubling. And I say nobody--I am going 
to repeat again--nobody is happy, including myself. I am not an 
expert in it, but I will be by the time we talk again.
    Senator Menendez. I will just close by saying this is an 
incredibly important position, because the well-being of 
millions of people who actually rely upon Social Security as 
part of their retirement security--who may not have all the 
other benefits at the end of the day that others have--is 
critical. So I look forward to continuing to hear where you are 
going in this regard.
    The Chairman. Thank you, Senator.
    Senator Carper?
    Senator Carper. Mr. Saul, thanks so much for being here 
with us today. Thanks for visiting with my staff and me in our 
office.
    You mentioned that your wife is here today, and there are 
several women sitting in the front row. I am not sure which one 
is your wife.
    Mr. Saul. Right behind me. That is simple.
    Senator Carper. All right, 50 years. Okay.
    Mr. Saul. Fifty years, proudly so.
    Senator Carper. Thanks for sharing him in a number of 
roles.
    Why have you been successful as a leader of a variety of 
different organizations? What are your keys to success? How 
might they apply to this challenge before you?
    Mr. Saul. Well, Senator, I think you have to understand the 
mission. And when you understand the mission, then you have to 
be focused on that mission. And I think that goes for anything 
you do, whether it is running for office or managing an 
organization. You have to be a focused individual with a goal 
in mind.
    Senator Carper. Joe Biden likes to say that all diplomacy 
is personal. He also says that all politics is personal. I 
think he is right.
    I would suggest one of the things you have done well so far 
is, you have gone around and met a number of my colleagues for 
us to get a chance to take measure of you and to learn a bit 
more about who you are and what you have done. I just want to 
mention a couple of names that might be helpful for you to call 
on when you have some time.
    One of them is the guy who runs GAO, the Government 
Accountability Office. His name is Gene Dodaro, and the folks 
who are your sherpas can help you track him down. But should 
you get confirmed--I think you just might--Gene Dodaro and the 
people at GAO spend a whole lot of time focusing on the Social 
Security Administration. He could be a great friend and ally. I 
urge you to get to know him, and soon.
    You have an Inspector General in the Inspector General's 
office within Social Security. They can be a bit of a pain 
sometimes, but I think for the most part they can do a lot more 
good and help you than would otherwise be the case. I urge you 
to get to know your Inspector General and his or her team too.
    Your Finance Committee is your oversight committee. And 
from time to time you will have the opportunity to come and 
testify before us, give us an update, or ask us for things that 
we can do, should do.
    What I find is always helpful when you come before us is to 
say, these are things that are going well, these are the things 
that are not, and these are the things that you could do that 
would help me, help us serve the people across this country 
better.
    Also, there is an Appropriations subcommittee--I think it 
is called the Labor, Health, and Education Subcommittee, that 
is the Appropriations subcommittee for the Social Security 
Administration. And I would urge you to get to know especially 
the members, Democrat and Republican members of that 
subcommittee, so they will know you just as we are getting to 
know you here today.
    I want to talk with you briefly about a problem my staff 
and I, along with a number of our colleagues, have been working 
on for some time that is called curbing improper payments. Last 
year GAO tells us that improper payments to deceased 
individuals were incredibly high. Improper payments throughout 
the Federal Government last year came in at about $144 
billion--billion with a ``b.''
    And as you may know, the Social Security Administration 
maintains the Nation's most complete database of deceased 
persons. It is known as the full death file. I call it the 
``master death file.''
    People say, what is the ``master death file''? I say it is 
a file you do not want your name to appear on because, if it 
does, you are dead. [Laughter.]
    But this is the only complete database of deceased 
individuals currently available in the Federal Government.
    This list of death data is simply not shared with the 
agencies that need it to combat improper payments. Again, 
improper payments totaled $144 billion last year.
    For quite a while, years in fact, I worked with a number of 
my Democratic and Republican colleagues to address this issue 
through legislation that would mandate the Social Security 
Administration more closely share the death information that it 
is responsible for. The latest official--as I said--improper 
payment estimate is about $144 billion.
    There is also a story that was in the news, I think earlier 
this year, about how many people whom the Social Security 
Administration has on file who are, I think, about the age of 
112. The number was 5 million--5 million people at the age of 
112.
    I thought that was pretty interesting. There might be 12 of 
that age, but there are not 5 million. I just want to put that 
in front of you.
    But any thoughts that you have about legislation that would 
mandate the Social Security Administration more widely share 
the death information that it is responsible for--are there any 
thoughts that you have on that? You may have never thought 
about this at all.
    Mr. Saul. No, I have. I know now that I believe the Social 
Security Administration does provide this information to other 
agencies of our government, when it is legal.
    I know we are restricted in certain cases because of 
privacy and so forth, so that we cannot provide all this 
information. But I do support the transparency and the 
communication with other agencies.
    Senator Carper. I think there is a shared responsibility--
and I will close with this--a shared responsibility for us to 
make sure that what I call the ``master death file'' is 
actually as accurate--more accurate than it is already. And to 
the extent that we make it ever more accurate, we should be 
able to provide and share that with other relevant Federal 
agencies so that they can reduce some of this $144 billion in 
improper payments.
    Thank you.
    The Chairman. Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman. I certainly 
want to echo Senator Carper's comments about sharing data. 
There is way too much territorial stuff going on in government, 
and there are all kinds of ways that we can protect people's 
privacy. There are a lot of taxpayer dollars wasted because 
information is not shared real-time in a way that is efficient 
and effective. And the death data is, frankly, one of the most 
obvious examples that I would hope you would put on your top 
three priority list for getting that fixed so other parts of 
government can make sure we are not sending payments to people 
who are no longer with us.
    On the bill that Senator Scott mentioned, he and I, along 
with Senator Cassidy, worked on that bill on synthetic ID 
fraud. What I wanted to bring to your attention is, this is an 
opportunity that we have to upgrade the existing IT 
infrastructure at SSA.
    But I am concerned, because the Social Security 
Administration has told us that it is more likely to build a 
whole new system. Now, I have seen this over and over again at 
the Pentagon, where things get siloed, and well, this is not 
exactly what this is so, therefore, let us go out and let us 
scope new requirements.
    And inevitably, government has a tendency to ask the IT 
experts what they need, and no wonder that the IT experts that 
are going to build the system tell them they need a lot, or 
maybe more than they do, because it is in their best interests 
to make it large and complex and, therefore, very expensive. So 
I am concerned when Federal agencies start from scratch, 
especially in 2018.
    I know that you are not yet in this, but I would like your 
commitment on the record that you will take a look, a long 
look, at whether or not it is a much better use of this money--
and the great thing is, this is the private sector that is 
paying for most of this--if it is better used upgrading the 
current IT system rather than building another one from 
scratch.
    Mr. Saul. Well, Senator, you are right on, because that 
was--just what you describe--the downfall of the system, if you 
remember, at the Federal Retirement Board. Why the thing failed 
is exactly what you said.
    The system got out of control. There were bells and 
whistles for every possible thing. We were building a 
rocketship to go to Mars instead of a functional working 
system.
    So I saw under my own--well, it was not under my watch, 
because I took over, unfortunately, as this whole mess 
transpired. I am scared to death of this, and I am very aware 
of this. That is why I said in my opening remarks that we have 
to go through the whole modernization plan, a to z, and be sure 
that what is there makes sense, is workable, as you say, and 
will satisfy the needs of the SSA.
    And you have my commitment to do that.
    Senator McCaskill. And there is off-the-shelf stuff 
available.
    Mr. Saul. I agree.
    Senator McCaskill. That is the other thing.
    Mr. Saul. Absolutely.
    Senator McCaskill. When you do not do it off-the-shelf, 
then you can indulge this idea that we are going to have all 
these bells and whistles and we can just push this button and 
get to know all this even though that is not the central reason 
that the system is being built.
    So I have seen a number of companies that have finally--
finally the army gave up on DCGS and went to a private 
contractor, because the people in the field were using the 
system that already existed, the software that already existed, 
as opposed to the bells and whistles, from-scratch software 
system. And if people in America knew the billions and billions 
and billions of dollars wasted on IT acquisitions in the 
Federal Government, they would be even madder than they are 
now, which is hard.
    The last question I have for you, briefly, is, you had 
mentioned to me when we visited before the hearing how proud 
you were of your relationship with the unions, the hardworking 
people in the Federal Government who have chosen to 
collectively bargain. I am very concerned at what appears to me 
this administration's proclivity to run over the law as it 
relates to collective bargaining agreements.
    Can I get your commitment on the record that you will 
follow the law as to the rights and responsibilities of both 
the management of Federal agencies and the people who are 
represented in the collective bargaining agreements?
    Mr. Saul. Absolutely, Senator.
    Senator McCaskill. Thank you, Mr. Chairman.
    The Chairman. Senator Whitehouse?
    Senator Whitehouse. Thank you, Mr. Chairman.
    Welcome, Mr. Saul. I appreciate your willingness to take 
this on. I think my questions are probably going to be a bit 
redundant with some of the ones you have already received on 
our side, but as you know, Social Security has become a bit of 
a political battleground between those who want to cut it or 
privatize it and those who try to defend it for the folks who 
rely on it.
    I simply want to make--let me start by defining my terms. 
You know what a Fifth Column is?
    Mr. Saul. Yes.
    Senator Whitehouse. Yes. It goes back to the Spanish Civil 
War, and the Fifth Column was the people inside the city 
prepared to sabotage on behalf of the attackers. I just want 
your assurance that you will not be a part of or party to any 
Fifth Column within Social Security out to try to affect the 
fight that we may have to have in Congress over defending 
Social Security.
    Mr. Saul. I can just state again, Senator, as I stated 
quite a few times here, my job--and I believe this is what I 
did at the Retirement Board, and that is why I was so 
successful--is to deliver the service for the beneficiaries. 
And I am going to leave the policy and these changes that you 
are referring to to the legislative branch and the Treasury 
Department. I am going to run the place in an efficient, 
transparent manner.
    Senator Whitehouse. Perfect. Thank you.
    And I guess I would ask a similar question as it relates to 
efforts to privatize Social Security. There are obviously very 
big financial interests that would love to get their hands on 
the amount of revenue and assets that are associated with 
Social Security.
    I think it would be a terrible mistake to let that happen 
because of all the potential conflicts of interest and added 
costs and so forth. But without litigating that point between 
us, I simply want your assurance that you do not intend to go 
in to take sides in favor of the forces of privatization and 
that you will let us fight that and give us whatever 
information we need that will be straight-up, legit, factual, 
real information and not canted or tilted to one side or 
another.
    Mr. Saul. Again, I do not think what you are referring to 
is the Commissioner's job. And I will pledge to you to be the 
support person, to make sure that all parties, interested 
parties, have accurate, transparent information.
    Senator Whitehouse. Great.
    From the large-scale issues, now I will go to a very, very 
small one that I am sure you are not even familiar with. And my 
point in this question is to flag it for you.
    As you probably know, Social Security Disability Insurance 
ordinarily requires a 5-month waiting period for somebody who 
claims a medical disability. The fundamental reason for that is 
that it provides a period in which somebody can get better, 
basically. So you do not want to put somebody on disability and 
go through all that rigmarole, and 5 months later they are 
better. And that has been, I think, the convention for why 
there is that 5-month delay.
    With the support of Chairman Hatch, which I appreciate very 
much, we have a proposal to suspend the 5-month waiting period 
for people who are diagnosed with ALS, with Lou Gehrig's 
disease. Nobody, historically speaking, has ever gotten better. 
And the physical decline that takes place is best prepared for 
and addressed from the earliest stages of the diagnosis.
    As you know, it is a particularly heart-breaking disease. I 
am hoping very much that if I ask you for information relative 
to administration, or relative to costs, or relative to our 
efforts to try to exempt people diagnosed with ALS from that 5-
month waiting period, that you will give this some attention or 
at least hand it off to somebody we can work with so that, in 
the conversations that we are having across the aisle on this 
subject, we are working off good, effective, proper 
information.
    Mr. Saul. Well, Senator, I saw a very good friend of mine 
pass away last year from ALS, and I realize what a deadly 
disease it is. Again, I think I would like the opportunity to 
get in here, take a look at the whole disability process.
    I do not think there is anybody sitting in this room who is 
completely happy with the way the process is working, including 
myself. I realize how serious it is, because there are a lot of 
people who really need this. And the 2-year wait is just an 
unacceptable thing.
    So just give me a chance to get in there--I told you this 
is one of the key things that has to be focused on.
    Senator Whitehouse. Good. Well, expect to be hearing from 
me on that minor, but I think important point.
    And again, I thank the chairman for the very helpful and 
productive conversations we have had about trying to find a 
remedy for this predicament. Thank you.
    The Chairman. Well, thank you. I appreciate those comments.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Saul, thank you for being here, and congratulations on 
your nomination.
    As you know--and you have probably been asked these 
questions in different ways today--but as you know, Social 
Security is critical to millions of Americans and more than 
175,000 South Dakotans. During your time as Chairman of the 
Federal Retirement Thrift Investment Board, you have shared 
that you were able to successfully reduce the costs to 
participants, and it sounds like run the Thrift Savings Plan 
efficiently.
    So my question is, what actions or principles can you take 
from your work there and apply to reducing administrative costs 
and to promoting greater efficiency at the Social Security 
Administration?
    Mr. Saul. Well, I think it is a lot of the things we talked 
about, Senator. Obviously the whole personnel and organization 
structure, having the right people in the right place to be 
able to deliver the services to the beneficiary, is number one.
    And we talked about it in the field offices, and we talked 
about it throughout the organization. That is number one.
    Number two, we have to go back to the technology part of 
this thing, because I do not believe you can ever really be 
happy with what is going on there without modern, up-to-date 
systems that work and are able to deliver those services. So I 
think those are two of the things that are really important.
    And really, I do not think it made much difference whether 
it was in the retail business, where we had these multiple 
locations that I have described before, or if it was at the 
Retirement Board. I think the Retirement Board and the SSA are 
very similar in a lot of ways. The organizations deliver 
services to the beneficiary or deliver services to the 
participant, as it was at the Retirement Board.
    Senator Thune. And you mentioned sort of modernizing those 
systems, the technology, in the same position that you held. I 
understand that you oversaw the implementation of the record-
keeping computer system that, before your time, had faced years 
of setbacks and ultimately cost plan participants.
    Knowing that the Social Security Administration currently 
relies on an outdated IT infrastructure and that modernization 
is needed, if confirmed, what is your approach to ensuring that 
IT projects are completed in a timely fashion and within 
budget?
    Mr. Saul. The first thing we have to do is analyze the 
modernization plan that is in place now, be sure it is right 
for the short term, be sure it is right for the long term. The 
second thing we have to do is be sure that the personnel are 
there to manage the systems today and to build the new systems 
for the future.
    This is going to be crucial to the success of the Social 
Security Administration in the future. And I realize this.
    You know, on one hand we have to run it day to day and be 
sure we are providing the services that we talked about in the 
offices, but on the other hand we have to be sure we are 
building something for the future that is going to work. And I 
had the experience at the Retirement Board, as I said before, 
of seeing what happens when the train goes off the track. And 
it was a heck of a mess. A tremendous amount of money was 
wasted.
    So I am very concerned. I am scared to death of the 
systems, I have to tell you that. And I intend to be sure what 
we are doing is well thought-out.
    Senator Thune. Well, I hope you can draw on your previous 
experience in bringing about some of those reforms and changes 
and modernization, because obviously it is heavily depended 
upon by millions of people across this country.
    Mr. Chairman, I would just say too, and I think this issue 
has been raised about solvency of the Social Security programs 
in this country, and I realize that the job to which Mr. Saul 
has been nominated is to run the agency and make sure it is run 
efficiently. But I do think we have to address the issue of 
solvency--and sooner rather than later.
    As I mentioned earlier, we have 175,000 South Dakotans who 
depend upon Social Security, but a whole lot more who are going 
to be retiring in the years ahead. As we all know, on its 
current trajectory that program will not be there for a lot of 
those people, at least in its current form, it is not going to 
be sustainable.
    So it is high time for us to do the hard work up here and 
to bring about the necessary reforms that will enable future 
Americans who also have paid into that system to be able to 
benefit from it when that time comes. So I hope that our 
committee will begin that important work in the very near 
future.
    Thank you.
    The Chairman. Thank you, Senator.
    Senator Wyden?
    Senator Wyden. Thank you very much, Mr. Chairman.
    I have two additional questions and one closing comment, 
with respect to where we go from here.
    Let me talk to you about privacy and cybersecurity for a 
moment, Mr. Saul. I know Senator Thune is here, and he has a 
great interest in this as well.
    We had the hack, of course, at OPM, at IRS, and it is 
pretty clear that Social Security would be a prime target for 
the people who were interested in these hacks. The agency is 
trying to phase out these archaic legacy systems. Some of what 
is there is in code older than many of my staff people.
    I am really a privacy hawk as it relates to protecting 
people's personal data in situations like this, their identity, 
particularly securing it and protecting it throughout your 
business process. In the last year, I have really been pushing 
the agency to follow the guidelines on passwords, password 
guidance, as it is called, from the National Institutes of 
Standards and Technology, and also to promote multi-factor 
authentication, which again is another kind of process for 
protecting people's data.
    What are you going to do, if you are confirmed, to protect 
the data of millions of Americans from cyber-attacks?
    Mr. Saul. Well, Senator, this is the kind of nightmare that 
keeps you awake at night. I understand that everybody's 
identification, every person who lives in this Nation, who 
works, is held within the systems of the Social Security 
Administration. So cybersecurity is going to be a priority in 
reviewing the whole systems operation there.
    We have to make sure--look, nothing is infallible, and as 
we know, the most sophisticated companies and systems can fall 
prey to this--but I will assure you that I will do whatever we 
possibly, humanly can to protect this data. And I agree with 
you 100-
percent; I take this very seriously.
    Senator Wyden. In the questions I am going to give you for 
the record that I need answers on before we vote, there are 
going to be two areas. One, specifics with respect to the 
backlog--and I want to know what you are going to do 
differently than the two people who sat where you did and were 
confirmed and said they were going to deal with the backlog. So 
that is number one.
    Number two, I want you to tell me what you are going to do 
with respect to the letters that I have sent to the agency 
saying you need to do password guidance in line with state-of-
the-art approaches and multi-factor technology, which is a way 
to beef up the authentication of people's data.
    So those are going to be the two areas where I need 
specifics with respect to what you are going to do, if 
confirmed.
    The other area I would just like to ask about is, we have 
been contacted by the disability advocates. There has been a 
tradition of the Commissioner meeting with the disability 
advocates quarterly. Here we are talking about Arc, the 
Consortium for Citizens With Disabilities, legal aid folks--
which are my roots, so people are not surprised that I mention 
them.
    Will you reinstitute that quarterly practice of meeting 
with those folks?
    Mr. Saul. Senator, I would like to have the ability to meet 
with the senior staff to talk to them and to see what has been 
the past practice at the agency.
    Senator Wyden. I just told you what the past practice was.
    Mr. Saul. I assure you that you have my support, but I want 
the opportunity just to be able to see what has been done.
    Senator Wyden. Okay.
    That is the third area where I am going to need a written 
answer, because what has been done is, there have been regular 
meetings with those folks. And of course people understand why 
they are exasperated. These are the people who do not have 
power, they do not have clout, they do not have big political 
action committees, and they are vulnerable and want to be 
heard.
    So I look forward to your written answers. I have told the 
chairman that I am going to work with him on this. I do need 
answers to those questions before we go ahead.
    I thought you were candid in the office, and I need some 
candor in those three areas that I will be submitting to you 
with respect to written questions. I think there may be some 
other areas that we have gotten questions over the transom, but 
I look forward to working with you, Mr. Chairman, on this.
    The Chairman. Thank you, Senator Wyden.
    Mr. Saul, as you are aware, SSA is mandated to provide 
support for a large number of other Federal programs, including 
the death master file, Medicare, Medicaid, E-Verify, Help 
America Vote Act, et cetera, some veterans benefits, and so on. 
Some of this work comes at significant cost to the agency and 
the taxpayer. If confirmed, would you work with Congress to 
assess agency effectiveness providing these services and 
ensuring that, when SSA is effectively working for another 
agency or program, the SSA gets adequate reimbursement?
    Mr. Saul. Yes, Mr. Chairman, I give you that assurance.
    The Chairman. That is great.
    You know, I am really impressed with you and your 
willingness to serve the people of this country in a very, very 
important position that we all rely on. So I just want to 
personally compliment you, your wife, your family, for being 
willing to give this kind of time to our government and to the 
American people. You are a good guy, and we want to get you 
through as quickly as we can.
    Senator Wyden. Mr. Chairman, I am sorry; there is a matter 
that Senator Casey brought up----
    The Chairman. Okay.
    Senator Wyden [continuing]. With respect to a procedural 
process as it relates to disability rights. It is called the 
reconsideration step that Senator Casey is concerned about. He 
would like to have a question about ensuring protection for 
folks who are dealing with disability claims. I would just ask 
unanimous consent that the question that Senator Casey feels 
strongly about, which I do as well, also be something you 
respond to as well, Mr. Saul.
    Thank you for that courtesy, Mr. Chairman.
    The Chairman. Thank you. I want to thank everybody for 
attending this and their participation in this hearing today.
    I would once more like to thank Mr. Saul for his 
willingness to serve. We really appreciate you and your 
willingness.
    I ask that any member who wishes to submit questions for 
the record, please do so by the close of business Thursday, 
October 4th.
    Mr. Saul, you have acquitted yourself very, very well. I am 
proud of you.
    And with that, the hearing is adjourned.
    Mr. Saul. Thank you, Mr. Chairman.
    [Whereupon, at 11:48 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following opening statement at a hearing to 
consider the nomination of Andrew Saul to be Commissioner of the Social 
Security Administration.

    This morning we are meeting to discuss the nomination of Andrew 
Saul to be Commissioner of Social Security. This is a long-overdue 
nomination. Mr. Saul, if confirmed, will become the first confirmed 
Commissioner at the Social Security Administration since 2013. I 
believe that most, if not all, of my colleagues here agree that having 
a confirmed Commissioner, and sustained leadership, will benefit the 
Social Security Administration, its operations, its employees, and the 
American people who rely on their checks arriving on time.

    Mr. Saul, if confirmed, you will be taking charge of an agency 
facing many challenges, including persistent information technology 
modernization issues and large work backlogs. Last week, I laid out 
some of these challenges at a nomination hearing for another important 
position at the agency. This agency needs someone in charge to help 
reduce disability-determination backlogs and workload backlogs. Those 
backlogs at the Social Security Administration are unacceptable to 
many, if not most, of us here in the Senate, and are not fair for the 
American people and Social Security beneficiaries. Operational issues 
at the agency need your immediate attention, and we look forward to 
your leadership in addressing them.

    I am pleased to see in your background, Mr. Saul, that you have 
decades of experience in both financial decision-making and in 
successfully managing and growing organizations. I believe that this 
experience helped you understand that you cannot run the Social 
Security Administration by spending all of your time in Woodlawn, MD 
and DC. Understanding what is happening in field and regional offices 
is critical in the role of executive leader of the agency.

    Before turning to my friend, Ranking Member Wyden, let me briefly 
address the fact that the President has nominated Mr. Saul to serve the 
remainder of the 6-year term that expires January 19, 2019. Today's 
hearing will not consider the second nomination, which involves service 
for the following 6-year term that expires January 19, 2025. Let me be 
clear that we are not considering the second nomination with respect to 
Senate procedure, and not with respect to your qualifications to serve.

    In particular, the second nomination would involve the Senate 
acting on a nomination which, strictly speaking, would be properly 
before the next Senate. Setting a Senate precedent that we could 
consider a possible sequence of future terms could bind future Senates 
improperly. Therefore, we will not be setting such a precedent today.

    Once again, to be clear, the issue is Senate procedure and 
precedent. The issue is not whether you would be qualified to serve as 
Social Security Commissioner for both the duration of this term and the 
following 6-year term. I am confident, and I expect, that if you are 
confirmed today for the first nomination, your nomination before the 
116th Congress will be taken up as promptly as possible next year.

                                 ______
                                 
           Additional Statement From Chairman Orrin G. Hatch
    It is disappointing the ranking member feels a need to question a 
statement that I made during the hearing to consider the nomination of 
Andrew Saul to be Commissioner of the Social Security Administration 
(SSA). I stand by everything I said during my questioning of Mr. Saul, 
including concerns about budget summary data that SSA put out, 
purportedly supported by underlying data, during the Obama 
administration that could not be corroborated using SAA's own 
underlying data. If budget data from any agency are not supportable by 
underlying facts in the agency's own accounting data, there is every 
reason to be concerned, especially if there is a potential that release 
of the unsupportable data has political undertones. The ranking member 
cites, in his ``Additional Statement,'' figures related to a 10-percent 
decline ``since 2010'' in a relatively new creation by SSA of a ``core 
operating budget,'' even though my remarks during Mr. Saul's nomination 
hearing said nothing about a 10-percent decline or the ranking member's 
identification of the period of such a decline between 2010 and, 
presumably, 2017. Moreover, I believe that identification of a similar 
finding by the Congressional Research Service of a 10-percent decline 
in the ``general LAE,'' which presumably is an analog to the ``core 
operating budget,'' is irrelevant.

                                 ______
                                 
      Prepared Statement of Hon. Andrew M. Saul, Nominated to be 
              Commissioner, Social Security Administration
    Chairman Hatch, Ranking Member Wyden, members of the committee, 
thank you for the opportunity to appear before you today. My name is 
Andrew Saul, and I am honored to be here.

    I want to thank the President for nominating me to serve as 
Commissioner of the Social Security Administration. The Social Security 
programs touch the lives of almost every American. Being nominated to 
this position is a tremendous privilege and an awesome responsibility. 
I am humbled by the opportunity to help the agency to deliver critical 
services to the American people.

    I would like to introduce my wife of 50 years, and my daughters and 
my son-in-laws.

    I am fortunate to have had a long-successful career, both in public 
service and in the private sector, and to have been able to serve in 
non-profit organizations.

    My experience will serve me well, should I be confirmed. I have 
worked as Vice Chairman and Chairman of the Finance Committee of the 
Metropolitan Transportation Authority, New York's regional 
transportation system and our Nation's largest public transportation 
network. As Chairman, I have been intimately involved in the budget, 
procurement, and public financing issues related to running a $20-
billion operation.

    I have also served as vice chairman of the Mount Sinai Health 
System, and longtime chairman of the Audit and Compliance Committee. 
Mount Sinai is one of our Nation's largest health systems, located in 
New York City. In addition, I have served as trustee and chairman of 
the Audit Committee of the National Gallery of Art. In these roles, I 
have learned a great deal about how to audit and monitor large 
institutions to ensure that operations are transparent and dollars 
well-spent. My work at Mount Sinai has also afforded an up-close view 
of health-care institutions, systems, and delivery of services.

    I started my career in the private sector. I worked for 20 years 
growing and managing two large publicly traded apparel chains. Under my 
management, these chains grew into national retailers, including 
hundreds of stores and employing thousands of workers. The operational 
challenges I faced there are similar to those facing SSA. I understand 
the importance of having a local retail presence to the customer and 
the importance of having modern systems that allow these retail 
locations to be connected to a national center. I worked hard to build 
a senior executive corps from within and train our employees from the 
ground up. Servicing the consumer is the key to success in the retail 
business.

    But I am most proud of my work with the Federal Thrift Investment 
Board. President Bush nominated me, and I was confirmed by the Senate, 
to be Chairman of the Federal Thrift Investment Board. The Board 
administers the Thrift Savings Plan, which provides military and 
Federal employees the opportunity to save for additional retirement 
security. When I took over as Chairman, the systems of the Board were 
in bad shape. I worked hard to lead the Board to modernize its systems 
and technologies, and to restructure the executive staff and personnel 
functions.

    During my chairmanship, the FTIB introduced the popular life cycle 
funds, which provide automatic, professionally designed asset 
allocation. In addition to increasing investment offerings, we 
increased TSP participation and simultaneously and substantially 
reduced participant costs. We improved the TSP website and made it and 
the toll-free telephone service centers user-friendly options for 
service and up-to-date information.

    Today, the TSP is a very different plan than it was in 2002; it is 
considered one of the most successful 401(k) plans in the Nation. I 
consider my work there to be one of my greatest life-time 
accomplishments. When President Bush left office and President Obama 
asked me to continue as chairman, I did not hesitate to agree.

    I am grateful for the opportunity to serve as Commissioner of 
Social Security. I know that SSA is filled with people who are 
dedicated to the mission of serving millions of Americans. But I know 
that the agency also needs leadership and increased executive 
accountability. If confirmed, I will work to help SSA to have the right 
organization to serve and be responsive to the American public and 
millions of beneficiaries. I will work to improve the disability 
adjudication process to reduce both the appeals backlog and wait times, 
which are unacceptable. And finally, I will make sure that SSA's 
systems are modern and updated, as I did with the Thrift Investment 
Board.

    Thank you for the opportunity to talk to you, and I look forward t 
working with you. I am happy to take your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Andrew Marshall Saul.

 2.  Position to which nominated: Commissioner, Social Security.

 3.  Date of nomination: April 17, 2018.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: November 6, 1946; New York City, NY.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list all secondary and higher education institutions, 
dates attended, degree received, and date degree granted):

        George W. Hewlett High School--1960-1964.

        Wharton School of Finance, University of Pennsylvania--1964-
        1968; bachelor's degree--May 1968.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment for each job):

        Cache, Inc., New York City--1993-2000; chairman of the board.

        BR Investors, New York City--1985-1986; president.

        Brooks Fashion Stores, New York City--1980-1985; president--
        1968-1980; executive vice president.

10.  Government experience (list any current and former advisory, 
consultative, honorary, or other part-time service or positions with 
Federal, State, or local governments held since college, including 
dates, other than those listed above):

        Federal Retirement Thrift Investment Board--2002-2011; 
        Chairman.

        Metropolitan Transportation Authority: Westchester County 
        Commissioner--2016-present; Vice Chairman--2006-2019; Chairman 
        of the Finance Committee--2006-2015; Board Member--1996-2005.

11.  Business relationships (list all current and former positions held 
as an officer, director, trustee, partner (e.g., limited partners, non-
voting, etc.), proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, other business enterprise, or 
educational or other institution):

        Cache, Inc., New York City--1993-2000; chairman of the board.

        BR Investors, New York City--1985-1986; president.

        Brooks Fashion Stores, New York City--1980-1985; president; 
        1968-1980; executive vice president.

        Mt. Sinai Health System; vice chairman--2007-present; chairman, 
        audit committee--1975-present; member executive committee--
        1975-present; board of directors--1968-present.

        Icahn School of Medicine at Mt. Sinai; vice chairman--2007-
        present; board of directors--1968-present.

        Wharton School of Finance, University of Pennsylvania; board of 
        overseers--1994-present.

        Metropolitan Museum of Art; trustee--1999-present.

        National Gallery of Art; trustee and member--2013-present.

        UJA Federation of New York; former board member--2009-2014.

        Sarah Neuman Nursing Home, Westchester, NY; former board 
        member--1997 to approximately 2007.

        The Manhattan Institute, New York, NY; former board member--
        1994-2008.

12.  Memberships (list all current and former memberships, as well as 
any current and former offices held in professional, fraternal, 
scholarly, civic, business, charitable, and other organizations dating 
back to college, including dates for these memberships, and offices):

        Mt. Sinai Health System; vice chairman--2007-present; chairman, 
        audit committee--1975-present; member executive committee--
        1975-present; board of directors--1968-present.

        Icahn School of Medicine at Mt. Sinai; vice chairman--2007-
        present; board of directors--1968-present.

        Wharton School of Finance, University of Pennsylvania; board of 
        overseers--1994-present.

        Metropolitan Museum of Art; trustee--1999-present.

        National Gallery of Art; trustee and member--2013-present.

        UJA Federation of New York; former board member--2009-2014.

        Sarah Neuman Nursing Home, Westchester, NY; former board 
        member--1997 to approximately 2007.

        The Manhattan Institute, New York, NY; former board member--
        1994-2008.

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a candidate 
        dating back to the age of 18.

       Ran for Congress, Westchester County 19th District, dropped 
candidacy before primary.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees 
        currently and during the last 10 years prior to the date of 
        your nomination.

       Republican National Committee; Republican National Congressional 
Committee; Senatorial Trust; New York State Republican Party; Regents 
member since 2003.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years prior to the date of your nomination.


------------------------------------------------------------------------
                                                 Individual/   Total by
     Year          RNC        NRCC       NRSC     NYS Party      Year
------------------------------------------------------------------------
2008              $57,000               $10,000      $33,500    $101,200
------------------------------------------------------------------------
2009                                     10,000       42,500      52,500
------------------------------------------------------------------------
2010                         $25,000     10,000      121,800     156,800
------------------------------------------------------------------------
2011               75,000     25,000     25,000       94,110     219,110
------------------------------------------------------------------------
2012               25,000     25,000      9,100       90,544     149,644
------------------------------------------------------------------------
2013               50,000     25,000     10,000       88,603     173,603
------------------------------------------------------------------------
2014               50,000     25,000     57,400       91,500     223,900
------------------------------------------------------------------------
2015               70,000     33,400     33,400       94,000     230,800
------------------------------------------------------------------------
2016               75,000     25,000     35,000       68,573     203,573
------------------------------------------------------------------------
2017              135,000     35,000     35,000      267,590     472,590
------------------------------------------------------------------------
2018                          25,000     35,000        3,000      63,000
------------------------------------------------------------------------
    Total        $625,000   $278,400   $249,900     $815,721  $1,969,021
------------------------------------------------------------------------



                      Itemization of Contributions
 
   Type        Date       Number       Name         Memo        Amount
 
Check       01/30/2008       8217  NYS                         $5,000.00
                                    Republican
                                    Party
 
Check       02/06/2008       8221  New York                    10,000.00
                                    County
                                    Republican
                                    Committee
 
Check       03/06/2008       8276  R.A.C.C.                     5,000.00
 
Check       03/12/2008       8302  Westchester                  1,500.00
                                    Republican
                                    County
                                    Committee
 
Check       04/29/2008       8396  NYS Senate                  10,000.00
                                    Republican
                                    Campaign
                                    Committee
 
Check       05/05/2008       8403  McCain                      57,700.00
                                    Victory
                                    2008
 
Check       05/20/2008       8440  New York                     2,000.00
                                    State
                                    Conservati
                                    ve Party
 
Check       10/21/2008       8718  Committee                    1,000.00
                                    to elect
                                    Caesar
                                    Trunzo
 
Check       10/21/2008       8719  Committee                    2,500.00
                                    to elect
                                    Serphin
                                    Maltese
 
Check       10/21/2008       8720  Committee                    2,500.00
                                    to elect
                                    Michael
                                    Ranzenhoef
                                    er
 
Check       10/21/2008       8721  Committee                    1,000.00
                                    to elect
                                    Joe Robach
 
Check       10/21/2008       8722  Committee                    1,000.00
                                    to elect
                                    Frank
                                    Padavan
 
Check       10/21/2008       8723  Committee                    1,000.00
                                    to elect
                                    Dennis
                                    Delano
 
Check       10/21/2008       8724  Committee                    1,000.00
                                    to elect
                                    Dave Renzi
 
Check       01/26/2009       8920  Westchester                  1,500.00
                                    Republican
                                    County
                                    Committee
 
Check       03/04/2009       8998  Tedisco for                  3,000.00
                                    Congress
 
Check       04/02/2009       9062  New York                    10,000.00
                                    County
                                    Republican
                                    Committee
 
Check       04/06/2009       9077  Friends of                   5,000.00
                                    Rob
                                    Astorino
 
Check       06/08/2009       9215  Friends of                     250.00
                                    Lee
                                    Roberts
 
Check       07/10/2009       9306  Friends of                   5,000.00
                                    Rob
                                    Astorino
 
Check       07/14/2009       9305  Rob          VOID                0.00
                                    Astorino
                                    for County
                                    Executive
 
Check       10/14/2009       9494  Committee                    1,000.00
                                    to Elect
                                    Dan Schorr
 
Check       10/19/2009       9505  Friends of                   5,000.00
                                    Rob
                                    Astorino
 
Check       10/27/2009       9523  NYS Senate                  10,000.00
                                    Republican
                                    Campaign
                                    Committee
 
Check       11/02/2009       9536  Friends of                   5,000.00
                                    Rob
                                    Astorino
 
Check       12/09/2009       9613  Republican                   5,000.00
                                    Assembly
                                    Campaign
                                    Committee
 
Check       01/04/2010       9665  New York                    50,000.00
                                    Republican
                                    State
                                    Committee
 
Check       01/11/2010       9680  NYS Senate                  10,000.00
                                    Republican
                                    Campaign
                                    Committee
 
Check       02/04/2010       9725  New York                     1,000.00
                                    Republican
                                    County
                                    Committee
 
Check       02/24/2010       9773  Chris Cox                    1,000.00
                                    for
                                    Congress
 
Check       04/21/2010       9902  New York                    10,000.00
                                    County
                                    Republican
                                    Committee
 
Check       06/28/2010      10030  Friends of                   4,800.00
                                    Nan
                                    Hayworth
 
Check       08/17/2010      10136  Committee                      500.00
                                    to Elect
                                    Mary Beth
                                    Murphy
 
Check       08/18/2010      10156  Taxpayers                    5,000.00
                                    for Wilson
 
Check       09/07/2010      10173  Saland for                     500.00
                                    Senate
 
Check       09/21/2010      10208  Westchester                  1,500.00
                                    Republican
                                    County
                                    Committee
 
Check       09/21/2010      10214  Friends of                     200.00
                                    Mike
                                    Ramondelli
 
Check       09/27/2010      10229  Phillips                       500.00
                                    for
                                    Congress
 
Check       09/27/2010      10230  Randy                        1,000.00
                                    Altschuler
                                    for
                                    Congress
 
Check       09/28/2010      10233  Castelli                       400.00
                                    2010
 
Check       09/29/2010      10237  Aiming High  Mitch           5,000.00
                                    PAC          Daniels
 
Check       10/04/2010      10241  Richard                      1,000.00
                                    Hanna for
                                    Congress
 
Check       10/04/2010      10242  Republican                  25,000.00
                                    National
                                    Congressio
                                    nal
                                    Campaign
                                    Committee
 
Check       10/19/2010      10281  Quinn for                    2,000.00
                                    New York
 
Check       10/19/2010      10282  Zeldin for                   2,000.00
                                    Senate
 
Check       10/19/2010      10283  Como for                     2,000.00
                                    Senator
 
Check       10/19/2010      10284  Bob Cohen                    2,000.00
                                    2010
 
Check       10/19/2010      10285  Reformers                    2,000.00
                                    for Russo
 
Check       10/19/2010      10286  Friends of                   2,000.00
                                    Patricia
                                    Ritchie
 
Check       10/19/2010      10287  New Yorkers                  2,000.00
                                    on the
                                    Ball
 
Check       10/19/2010      10288  Senate                      10,000.00
                                    Republican
                                    Campaign
                                    Committee
 
Check       10/27/2010      10300  Michel                       2,000.00
                                    Faulkner
                                    for
                                    Congress
 
Check       10/27/2010      10302  Donovan                      5,000.00
                                    2010
 
Check       11/01/2010      10311  Taxpayers                    5,000.00
                                    for Wilson
 
Check       11/10/2010      10322  Randy                        2,400.00
                                    Altschuler
                                    for
                                    Congress
                                    Recount
                                    Fund
 
Check       04/11/2011        343  New York                    25,000.00
                                    Republican
                                    State
                                    Committee
 
Check       05/09/2011        409  Republican                  25,000.00
                                    National
                                    Congressio
                                    nal
                                    Campaign
                                    Committee
 
Check       05/09/2011        419  Westchester                 25,000.00
                                    Republican
                                    County
                                    Committee
 
Check       05/10/2011        424  Friends of                   1,500.00
                                    Peter
                                    Michaelis
 
Check       05/23/2011        445  National                    25,000.00
                                    Republican
                                    Senatorial
                                    Committee
 
Check       06/13/2011        497  Bedford      VOID: $300          0.00
                                    Town         check
                                    Republican   never
                                    Committee    cashed
 
Check       07/06/2011        543  New York                    25,000.00
                                    Republican
                                    State
                                    Committee
 
Check       07/25/2011        567  Republican                  25,000.00
                                    National
                                    Committee
 
Check       09/06/2011        642  Turner for   VOID                0.00
                                    Congress
                                    2011
 
Check       09/06/2011        643  Turner for                     500.00
                                    Congress
                                    2011
 
Check       10/18/2011        747  NYS Senate                  10,000.00
                                    Republican
                                    Campaign
                                    Committee
 
Check       10/20/2011        755  Friends of                   1,000.00
                                    Peter
                                    Michaelis
 
Check       12/07/2011        861  Republican                  25,000.00
                                    National
                                    Committee
 
Check       12/12/2011        873  Cash         Waiter 12/8/      200.00
                                                 2011
 
Check       12/12/2011        874  Cash         Waiter 12/8/      200.00
                                                 2011
 
Check       12/12/2011        875               Waiter 12/8/      200.00
                                                 2011
 
Check       12/12/2011        876  Cash         Waiter 12/8/      200.00
                                                 2011
 
Check       12/12/2011        877  Cash         Waiter 12/8/      200.00
                                                 2011
 
Check       12/12/2011        878  Cash         Coat Check        110.00
                                                 P12/8/2011
 
Check       12/20/2011        906  Republicn                   25,000.00
                                    National
                                    Committee
 
Check       01/17/2012        955  Fifth        RNC             4,060.00
                                    Seventy
                                    Seven Inc.
 
Deposit     01/26/2012     004229               Buffet         -1,170.00
                                                 Reimb--P12/
                                                 8/2011
 
Check       02/13/2012       1022  Randy                        2,500.00
                                    Altschuler
                                    for
                                    Congress
 
Check       03/02/2012       1064  Friends of                   5,000.00
                                    Rob
                                    Astorino
 
Check       04/18/2012       1174  NYS                         25,000.00
                                    Republican
                                    Party
 
Check       05/03/2012       1205  Romney                      25,000.00
                                    Victory,
                                    Inc.
 
Check       05/22/2012       1240  Republican                  25,000.00
                                    National
                                    Congressio
                                    nal
                                    Campaign
                                    Committee
 
Check       06/05/2012       1269  Knickerbock  S045--Funct     4,354.22
                                    er Club      ion #1230
 
Check       06/11/2012       1288  Bedford                        300.00
                                    Town
                                    Republican
                                    Committee
 
Check       06/21/2012       1319  Friends of                   5,000.00
                                    Bob Cohen
 
Check       08/10/2012       1391  Jeff Flake   VOID                0.00
                                    for
                                    Congress
 
Check       08/10/2012       1392  Brown for    VOID: Stop          0.00
                                    Senate       Payment
                                                 12/3/2012
 
Check       08/10/2012       1393  National     Denise          9,100.00
                                    Republican
                                    Senatorial
                                    Committee
 
Check       08/28/2012       1434  Jeff Flake                  10,000.00
                                    for U.S.
                                    Senate
 
Check       09/10/2012       1469  NYS                         25,000.00
                                    Republican
                                    Party
 
Check       10/11/2012       1540  Saland for                     500.00
                                    Senate
 
Check       10/18/2012       1569  NYS Senate                  10,000.00
                                    Republican
                                    Campaign
                                    Committee
 
Check       05/22/2013       2059  Republican                  25,000.00
                                    National
                                    Committee
 
Check       05/29/2013       2075  NYS                         25,000.00
                                    Republican
                                    Party
 
Check       09/16/2013       2275  Republican                  25,000.00
                                    National
                                    Congressio
                                    nal
                                    Campaign
                                    Committee
 
Check       09/30/2013       2322  NYS                         25,000.00
                                    Republican
                                    Party
 
Check       10/23/2013       2380  Senate                      10,000.00
                                    Republican
                                    Campaign
                                    Committee
 
Check       12/03/2013       2450  McConnell                   10,000.00
                                    Senate
                                    Committee
 
Check       12/20/2013       2513  Republican                  25,000.00
                                    National
                                    Committee
 
Check       02/10/2014       2599  Molinaro                       500.00
                                    for
                                    Dutchess
 
Check       05/19/2014       3191  NYS                         25,000.00
                                    Republican
                                    Party
 
Check       06/16/2014       3243  Republican                  25,000.00
                                    National
                                    Congressio
                                    nal
                                    Campaign
                                    Committee
 
Check       08/01/2014       3337  American     National       32,400.00
                                    Express      Republican
                                                 Senate
                                                 Committee-
                                                 - 7/14/14
 
Check       09/15/2014       3417  NYS                         25,000.00
                                    Republican
                                    Party
 
Check       09/29/2014       3447  NYS Senate                  10,000.00
                                    Republican
                                    Campaign
                                    Committee
 
Check       09/29/2014             Friends of   VOID                0.00
                                    Nan
                                    Hayworth
 
Check       09/29/2014       3452  Friends of                   5,000.00
                                    Nan
                                    Hayworth
 
Check       10/06/2014       3457  American     Republican     50,000.00
                                    Express      National
                                                 Committee
                                                 9/15/14
 
Check       10/09/2014       3473  The Thom                     2,600.00
                                    Tillis
                                    Committee
 
Check       10/14/2014       3475  Chase Card   Bill            5,200.00
                                    Services     Cassidy
 
Check       11/03/2014       3531  American     Ernst,         15,600.00
                                    Express      Sullivan,
                                                 and
                                                 Perdue--$5
                                                 ,200 each
 
Check       11/17/2014       3560  Chase Card   Targeted       10,000.00
                                    Services     State
                                                 Victory
 
Check       11/17/2014       3560  Chase Card   Friends of      5,000.00
                                    Services     Cahill
 
Check       12/08/2014       3593  Chase Card   Senate          2,600.00
                                    Services     Battlegrou
                                                 nd Fund
 
Check       12/08/2014       3596  American     NYS Senate     10,000.00
                                    Express      Republican
                                                 -P10/30/
                                                 2014
 
Check       03/02/2015       3766  American     Right to       25,000.00
                                    Express      Rise Super
                                                 Pac--Jeb
                                                 Bush
 
Check       04/06/2015       3819  American     Team Mitch      5,000.00
                                    Express
 
Check       06/01/2015       3967  American     NRSC CMDI      33,400.00
                                    Express
 
Check       06/08/2015       3982  Bedford                        300.00
                                    Town
                                    Republican
                                    Committee
 
Check       06/15/2015       3994  Chase Card   Republican     33,400.00
                                    Services     Congressio
                                                 nal
                                                 Committee
 
Check       06/15/2015       3994  Chase Card   NY             10,000.00
                                    Services     Republican
                                                 State
                                                 Committee
 
Check       06/15/2015       3994  Chase Card   NY             15,000.00
                                    Services     Republican
                                                 State
                                                 Committee
 
Check       07/02/2015       4020  American     Republican      1,600.00
                                    Express      National
                                                 Committee
 
Check       07/02/2015       4020  American     Republican     33,400.00
                                    Express      National
                                                 Committee
 
Check       10/22/2015       4211  Westchester                 10,000.00
                                    Republican
                                    Committee
 
Check       10/22/2015       4219  Friends of                   1,000.00
                                    Francis T.
                                    Corcoran
 
Check       11/02/2015       4231  American     Faso for        2,700.00
                                    Express      Congress
 
Check       11/02/2015       4231  American     RNC             1,600.00
                                    Express
 
Check       11/02/2015       4231  American     RNC            33,400.00
                                    Express
 
Check       11/16/2015       4258  Chase Card   NY             25,000.00
                                    Services     Republican
                                                 State
                                                 Committee
 
Check       05/02/2016       4583  American     NY             25,000.00
                                    Express      Republican
                                                 State
                                                 Committee
 
Check       05/09/2016       4589  Chase Card   RNC            35,000.00
                                    Services
 
Deposit     05/09/2016      12163               Refund from    -2,927.50
                                                 Right to
                                                 Rise--J.Bu
                                                 sh
 
Check       07/27/2016       4734  American     NY              2,000.00
                                    Express      Republican
                                                 State
                                                 Committee
 
Check       07/27/2016       4734  American     Friends of      5,000.00
                                    Express      Rob
                                                 Astorino
 
Check       07/27/2016       4734  American     Oliva for       2,700.00
                                    Express      Congress
 
Check       10/03/2016       4830  American     NRSC           35,000.00
                                    Express
 
Check       10/03/2016       4830  American     NYGOP          25,000.00
                                    Express
 
Check       10/11/2016       4848  Chase Card   NYS Senate     10,000.00
                                    Services     Republican
                                                 Campaign
 
Check       10/31/2016       4892  American     NRCC           25,000.00
                                    Express
 
Check       12/05/2016       4966  American     Faso for        1,500.00
                                    Express      Congress
 
Check       01/03/2017       5022  American     58th          180,000.00
                                    Express      Presidenti
                                                 al
                                                 Inaugurati
                                                 on
 
Check       02/23/2017       5139  JPMorgan     NRCC           35,000.00
                                    Card
 
Check       02/27/2017       5152  American     NRSC           35,000.00
                                    Express
 
Check       02/27/2017       5152  American     NYGOP          25,000.00
                                    Express
 
Check       04/03/2017       5212  American     RNC            35,000.00
                                    Express
 
Check       07/24/2017       5430  JPMorgan     NYGOP          25,000.00
                                    Card
 
Check       10/02/2017       5543  American     Rob            10,000.00
                                    Express      Astorino
 
Check       10/10/2017       5566  Knickerbock  S045--Funct     2,090.39
                                    er Club      ion #6255
 
Check       10/23/2017       5596  Citi Cards   Orangetown        500.00
                                                 Republican
                                                 Committee
 
Check       11/01/2017             American     RNC--Trump    100,000.00
                                    Express      Pence
                                                 Victory
 
Check       12/04/2017       5694  American     NYGOP          25,000.00
                                    Express
 
Check       01/03/2018       5744  American     Team Graham     1,000.00
                                    Express
 
Check       01/08/2018       5760  Perdue for   2020 Re-        2,600.00
                                    Senate       election
                                                 campaign
 
Deposit     01/08/2018       2033               Perdue for     -2,600.00
                                                 Senate
                                                 refund
                                                 2013-2014
                                                 campaign
 
Check       02/20/2018       5833  The                          1,000.00
                                    Committee
                                    to Elect
                                    Terrence
                                    Murphy
 
Check       04/02/2018       5914  American     Saccone         1,000.00
                                    Express      Victory
 
Sent Form   2/27/2018              American     Protect the    25,000.00
                                    Express      House--NRC
                                                 C
 
            3/13/2018              Visa         Julie           1,000.00
                                                 Killian
                                                 for State
                                                 Senate
 
            4/2/2018               American     Chairman's     35,000.00
                                    Express      Victory
                                                 Fund--NRSC
 
    Total                                                      2,030,021
 


14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement received 
since the age of 18):

        United Hospital Fund, Distinguished Trustee--1999.

15.  Published writings (list the titles, publishers, dates, and 
hyperlinks (as applicable) of all books, articles, reports, blog posts, 
or other published materials you have written):

        None.

16.  Speeches (list all formal speeches and presentations (e.g., 
PowerPoint) you have delivered during the past 5 years which are on 
topics relevant to the position for which you have been nominated, 
including dates):

        None.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        I have a desire to serve my country. I have extensive 
        experience with various Federal, State, and private entities. 
        For 20 years I was in the private sector growing and managing 
        two large publicly traded mall-based retailing apparel chains.

        Brooks Fashion Stores, a New York Stock Exchange-traded 
        company, grew to over 500 stores under my management until it 
        was sold in a leveraged buyout to BR Investors in 1984. Brooks 
        was a national chain operating in over 40 States employing over 
        5,000 people. As CEO I had to deal with technological 
        innovations, management decisions, and various crisis 
        management.

        Management of the executive force was a great part of my 
        responsibilities. Productivity using enhanced technology was 
        most important to improve the profit performance. During my 
        tenure, we trained and built within the organization many of 
        our senior executives. At Brooks, my leadership as CEO was 
        responsible for the improved profit performance which enabled 
        the sale of Brooks to BR Investors.

        Cache, another mall-based apparel retailer, grew to over 300 
        stores under my leadership. Cache was a publicly traded NASDAQ-
        listed stock. As with Brooks, Cache had similar management and 
        technological challenges. In 2000 I left my position as 
        chairman and over the next years exited my ownership position.

        In 2002, President Bush nominated me and I was confirmed by the 
        Senate to the position as Chairman of the Federal Thrift 
        Investment Board. As Chairman, I presided over the 
        modernization of all the systems and investment offerings. As 
        Chairman, my responsibilities included the management of the 
        executives and employees of the agency. I was responsible for 
        promotions and restructuring of the executive staff and 
        personnel functions. When President Bush left office, President 
        Obama asked me to continue as Chairman, and therefore I have 
        served both Presidents.

        During my chairmanship, we substantially reduced the costs to 
        the participants while at the same time increased the offerings 
        and more than doubled the size of the Thrift Savings Plan. I am 
        most proud of my accomplishments and loved government service. 
        Today, the Thrift Savings Plan, which I had a major impact on, 
        is considered to be one of the foremost and successful 401(k) 
        plans in the Nation. I consider this to be one of my greatest 
        life-time accomplishments.

        As Vice Chairman and Chairman of the Finance Committee of the 
        Metropolitan Transportation Authority, our Nation's largest 
        public transportation system, I have gained a great amount of 
        experience in budgeting, procurement, and public financing 
        issues. As long-time Finance Chairman, I was intimately 
        involved in all the financial issues of running a $20-billion-
        plus entity.

        I have served as long-time chairman of the audit and compliance 
        committee of the Mount Sinai Health System. I have experience 
        in all the efforts that one might expect in chairing the 
        committee of one of the major not-for-profit hospital systems. 
        I also serve as chairman of the audit committees of the 
        National Gallery of Art and Metropolitan Museum of Art, which 
        experiences have furthered my financial acumen.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections (including participation in future 
benefit arrangements) with your present employers, business firms, 
associations, or organizations if you are confirmed by the Senate? If 
not, provide details.

        No; however, I have consulted with representatives from the 
        U.S. Office of Government Ethics and the Designated Agency 
        Ethics Official for the Social Security Administration 
        regarding potential conflicts of interest. I have signed an 
        ethics agreement that details the actions I will take to avoid 
        any potential conflicts of interest. I have provided a copy of 
        the agreement with this questionnaire.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any current and former investments, obligations, 
liabilities, or other personal relationships, including spousal or 
family employment, which could involve potential conflicts of interest 
in the position to which you have been nominated.

        I have consulted with representatives from the U.S. Office of 
        Government Ethics and the Designated Agency Ethics Official for 
        the Social Security Administration regarding potential 
        conflicts of interest regarding my investments and the position 
        to which I have been nominated. I have signed an ethics 
        agreement that details the actions I will take to avoid any 
        potential conflicts of interest. I have provided a copy of the 
        agreement with this questionnaire.

 2.  Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years (prior to the 
date of your nomination), whether for yourself, on behalf of a client, 
or acting as an agent, that could in any way constitute or result in a 
possible conflict of interest in the position to which you have been 
nominated.

        None.

 3.  Describe any activity during the past 10 years (prior to the date 
of your nomination) in which you have engaged for the purpose of 
directly or indirectly influencing the passage, defeat, or modification 
of any legislation or affecting the administration and execution of law 
or public policy. Activities performed as an employee of the Federal 
government need not be listed.

        None.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that are disclosed by your responses to the above items. 
(Provide the committee with two copies of any trust or other 
agreements.)

        I have consulted with representatives from the U.S. Office of 
        Government Ethics and the Designated Agency Ethics Official for 
        the Social Security Administration regarding potential 
        conflicts of interest regarding my investments and the position 
        to which I have been nominated. I have signed an ethics 
        agreement that details the actions I will take to avoid any 
        potential conflicts of interest. I have provided a copy of the 
        agreement with this questionnaire.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

        Copies provided.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency 
(e.g., an Inspector General's office), professional association, 
disciplinary committee, or other ethics enforcement entity at any time? 
Have you ever been interviewed regarding your own conduct as part of 
any such inquiry or investigation? If so, provide details, regardless 
of the outcome.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? Have you ever been interviewed 
regarding your own conduct as part of any such inquiry or 
investigation? If so, provide details.

        In 2012 I had a biking incident at a New York City reservoir 
        roadway across from my home in Westchester. I was briefly 
        detained by the Department of Environmental Protection Officer 
        for riding a bike on a questionably controlled roadway. I was 
        not charged nor issued a summons.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        Roger W. Mehle vs. Andrew M. Saul, et al. Civil Action 03--
        0111. While I was Chairman of the Federal Retirement Board the 
        former chairman sued myself and my fellow board members in 
        Civil Court in Washington, claiming that we acted improperly in 
        settling a contract dispute involving a failed computer system. 
        The contract was executed prior to our joining the agency. The 
        suit was eventually dropped in its entirety. The Board was 
        represented by the U.S. Justice Department.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
       Questions Submitted for the Record to Hon. Andrew M. Saul
               Questions Submitted by Hon. Orrin G. Hatch
    Question. Like any agency, SSA is always on the lookout for 
increased funding. I suspect you will, if confirmed, act no 
differently. Given resource constraints that we all face, I'd like to 
note that the SSA has been spending millions of dollars on various 
research activities, the utility of which is questionable. For example, 
last year SSA spend $10 million on the Retirement Disability 
Consortium, and 72 percent of their total output was working papers 
that likely would be published even if SSA wasn't the funding source. 
Let me recall that in 2015, some of us in Congress were looking for 
ways to improve the Disability Insurance program as part of the Social 
Security reforms that President Obama signed into law in that year. 
During debates running up to that law, I asked SSA what we had learned, 
and what their research has shown, that can help guide reform efforts. 
The answer I got was simply a list of past working papers. And while I 
am sure that professors and other researchers enjoy having their papers 
funded, if there is little to no return on investment for SSA, perhaps 
all the research money that SSA doles out could be used instead to help 
beneficiaries of Social Security.

    If confirmed, will you commit to taking a serious look at the 
efficacy of research funding that SSA doles out?

    Answer. I agree that the taxpayers' dollars should be spent wisely. 
If confirmed, I will look at the Social Security Administration's (SSA) 
research funding.

    Question. Millions of applicants for Social Security Disability 
Insurance have endured significant wait times given large backlogs of 
processed cases. According to SSA's own projections, it will be years 
before existing backlogs are resolved. I think it is fair to say that 
there is bipartisan concern about the backlogs, and bipartisan interest 
in seeing them reduced. So, Mr. Saul, I wonder if you have any thoughts 
on the backlogs, which I am sure you have studied, and whether you'll 
be willing to work hard to resolve today's outsized backlogs?

    Answer. As I said during the hearing, improving the disability 
adjudication process, including reducing wait times and hearings 
backlogs, is one of my top priorities, and I am committed to reviewing 
the entire disability adjudication process from start to finish. I will 
devote my attention to this critical issue, if confirmed.

    Question. According to a recent SSA-funded survey, only about 1 in 
6 non-retirees had ever heard of My Social Security and only half of 
those had set up an online account. Also, when Social Statements 
stopped being mailed back in 2011, reported earning corrections 
decreased dramatically.

    Do you have any thoughts on how the agency could help Americans 
check their reported earnings for corrections, understand the benefits 
and better prepare for retirement, without becoming a fiduciary?

    Would you be willing to look into testing the communications with 
respect to earnings and possible future benefits?

    Answer. I understand that accurate earnings records are key to 
ensuring proper payment of Social Security benefits. It is critical 
that Americans can check and correct their earnings easily, and better 
understand their benefits. If confirmed, I will be briefed on the 
current communications strategy and see how it can be improved.

    Question. SSA has a variety of ``demonstration projects'' going on, 
to test possible programmatic changes for effectiveness. Too often, 
however, it seems as though the projects do not have an end date or 
sometimes continue beyond specified end dates. So they effectively 
become back-door public policymaking. Will you look into SSA's 
demonstration project activities to ensure that there are appropriate 
objectives, metrics with which to measure progress or lack of progress, 
and end dates?

    Answer. Yes.

    Question. Social Security Disability Insurance determinations rely 
on an official jobs listing to determine whether or not individuals can 
perform any job that exists in the national economy. Yet, that official 
job listing has not been updated for decades. While the listings 
include jobs such as ``seal killer'' and ``telegram messenger,'' there 
is no mention of the Internet. Do you believe it is important to update 
this job listing?

    Answer. I agree that the disability program should reflect today's 
job market, as well as technological changes and medical advances. All 
three will be part of my review of the entire disability adjudication 
process.

    Question. In 2014, a whistleblower notified Congress that SSA spent 
$300 million developing a failing in-house program. To date, SSA has 
spent $449 million dollars on this failed project even though a 
Commercial Off-The-Shelf (COTS) program has existed for decades and 
reportedly is being fully modernized at private expense. As incoming 
Commissioner with the opportunity to reverse any wasteful spending 
practices, what would you do to prevent this continued waste of 
taxpayer funding?

    Answer. I understand SSA is developing an in-house system and that 
it is fairly far along. If confirmed, I will review the progress of the 
development and report back to you. Regarding IT as a whole, as I 
indicated during my hearing, IT modernization will be one of my top 
priorities, and I am committed to ensuring that taxpayer dollars are 
used wisely.

    Question. SSA has stated, for the record, throughout the lengthy 
history of the Disability Case Processing System (DCPS) that the States 
have the option not to accept DCPS. Further, Congress has expressly 
reminded SSA through appropriations language that the States have the 
right to choose an alternative Commercial Off-The-Shelf (COTS) solution 
with Congress also directing SSA to support this right of choice. As 
incoming Commissioner, how will you view this congressional directive 
and support the States right to choose an alternative COTS solution?

    Answer. I am aware of the appropriations language. If confirmed, I 
will look into this project and be transparent with Congress about its 
progress.

                                 ______
                                 
               Questions Submitted by Hon. Chuck Grassley
    Question. The Office of Inspector General has identified seven 
issues they consider the most serious management and performance 
challenges facing SSA. These include a need to improve customer 
service, modernize information technology, increase the security of 
information systems, reduce improper payments, improve the 
administration of the disability programs, strengthen transparency and 
accountability, and enhance the integrity and protection of Social 
Security Numbers. If confirmed, how would you go about prioritizing 
these serious management issues? Are there any other challenges, not 
identified by the Inspector General, that you believe should be a high 
priority for the next Commissioner?

    Answer. The Office of Inspector General (OIG) identified several 
challenges facing the agency, including the three that I identified as 
priorities during the hearing: improving the disability adjudication 
process, including reducing wait times and appeals backlogs; 
modernizing the IT infrastructure; and increasing executive and 
management accountability. If confirmed, I plan to address these three 
issues, and will work to review and address the others.

    Question. In your written testimony you commit to working to reduce 
the backlog and wait times for Social Security Disability cases. The 
disability backlog has long been a concern of Congress and a stated 
priority of SSA. Earlier this year, Congress even appropriated an 
additional $100 million for SSA to help address the backlog. Yet, there 
still doesn't appear to be much progress. In your view, what must be 
done to address the backlog? Is the answer more money, or is this an 
issue that must be addressed through administrative and program 
efficiencies?

    Answer. I find that the backlogs and wait times are unacceptable. 
If confirmed, I plan to review the disability adjudication process from 
start to finish, and will work with agency experts and other 
stakeholders to explore options for improving the entire process. If I 
find that additional resources are warranted, I will say so.

    Question. In recent years, the Social Security Administration has 
sought to expand the number of online services that it offers to 
beneficiaries. This includes allowing beneficiaries to create free 
personal online account where they can manage their benefits, check 
benefits statements, and request a replacement Social Security Card 
among other options. It's good to see SSA using technology to better 
serve their customers. However, I know for some elderly Iowans, 
particularly those that may have limited access to rural broadband, 
online services are no substitute for a physical local Social Security 
office. Do you agree that it remains critical for SSA to maintain well-
staffed local offices where beneficiaries can access face-to-face 
services?

    Answer. I understand the important role local Social Security 
offices play in delivering service and maintaining personal contact 
with the public. That said, I also understand the important role that 
online services play for many beneficiaries. To provide the best 
service to the public, we have to have the right balance of services. 
If confirmed, one of my priorities will be a review of the agency's 
customer service plans.

    Question. According to reports in The Des Moines Register and other 
news outlets, Cristhian Bahena Rivera, an undocumented immigrant who is 
currently on trial for murder in Iowa, began using a fraudulently 
obtained Social Security number in 2014 through the time of his arrest 
this summer. Reports indicate that the SSN he used belonged to an Ohio 
man, John Budd, and that the same number was receiving wages in three 
different States all at the same time.

    To your knowledge, did the Social Security Administration know that 
this SSN was being used in three different States at the same time? If 
you don't know, will you find out?

    To your knowledge, did the SSA know that this SSN was being used 
fraudulently? If you don't know, will you find out?

    What mechanisms does the SSA have in place to flag when and whether 
SSNs have been or are being used fraudulently?

    Will you commit to combatting SSN fraud if confirmed to the 
position of Commissioner?

    Does the SSA know when an SSN is being used in multiple 
jurisdictions--even across State lines?

    If so, what does the SSA do when that occurs?

    Answer. I share your concern about SSN misuse and fraud. At this 
time, I am not able to provide specific answers to your questions about 
SSA policies and practices as I have had limited interactions with the 
agency, pending the Senate's consideration of my nomination. However, 
if confirmed, I will certainly commit to working with the OIG to combat 
SSN fraud and look at the other issues you raise.

    Question. In 2016, the IRS determined that more than 1 million 
Americans' SSNs were stolen by undocumented immigrants. On July 11, 
2017, I sent a letter to then-IRS Commissioner Koskinen, demanding 
answers about undocumented immigrants fraudulently using another's SSN 
to gain employment.

    Do you know right now how many Americans' SSNs are being used 
fraudulently by undocumented immigrant workers?

    To your knowledge, does the SSA keep an account, or accounting, for 
all earnings associated with incorrect or fictitious SSNs? This has at 
times been referred to as the ``earnings suspense file.''

    Do you know what fraction of the earnings suspense file corresponds 
to the earnings of undocumented immigrants?

    In the name of transparency, will you commit to alerting Congress 
and the American people of how many SSNs are currently being used by 
undocumented immigrants? And will you commit to informing the American 
people how much money the SSA receives from those undocumented 
immigrants?

    Answer. I am not able to provide answers to your specific questions 
regarding SSA policies and practices, or the exact data SSA maintains 
regarding workers and earnings. If confirmed, I will work with the OIG 
and reach out to the Internal Revenue Service (IRS) to look at the 
totality of the issues you raise.

    Question. Is the SSA legally or statutorily barred from sharing 
information about suspect SSN usage with law enforcement, including 
Federal immigration authorities? If not, which section in the U.S. 
Code, or which law, would you or the SSA cite for this prohibition of 
information sharing?

    Answer. If confirmed, I will work with you and SSA's General 
Counsel to provide the appropriate statutory citations regarding 
information sharing.

                                 ______
                                 
             Questions Submitted by Hon. Patrick J. Toomey
    Question. Since the passage of tax reform, there has been an 
increased demand for workers throughout the country. However, some 
individuals are still left on the sidelines. While not all disability 
beneficiaries can return to work, over 40 percent of beneficiaries said 
they were interested in working in a 2015 survey conducted by the 
Social Security Administration. However, in a given year, fewer than 
one half of one percent of disability beneficiaries leave the rolls due 
to earnings from work. Beneficiaries who want to return to work face 
complicated rules and work incentives that discourage re-entering the 
workforce.

    If confirmed, how would you, as Commissioner, work to make it 
easier for Disability Insurance beneficiaries who want to go back to 
work to do so?

    Answer. If confirmed, I will review the agency's current strategies 
for promoting awareness of work incentives and collaborate with 
Congress to seek solutions to support beneficiaries' efforts to return 
to work. In addition, I understand that the President's budgets include 
proposals to test alternative program designs to help individuals with 
disabilities stay in the labor force and assist individuals with 
temporary disabilities return to work.

    Question. State and local government workers who participate in 
separate pension systems and then transition to jobs that are covered 
by Social Security are subject to the Windfall Elimination Provision--
an arbitrary, one-size-fits-all formula that is not representative of 
what they pay into Social Security. Often, workers do not even realize 
they are subject to this reduction because it is not shown on their 
Social Security benefits statement and is only shown once the worker 
files for Social Security. I have a bill that would resolve this issue 
for first responders, who can be hit harder by this reduction because 
they tend to retire earlier.

    If confirmed, how would you, as Commissioner, work to address these 
issues and provide fair treatment to these State and local government 
workers?

    Answer. If confirmed, I would provide assistance regarding the 
technical aspects of the statutory requirements related to Social 
Security coverage for State and local government workers, as well as 
SSA's administration of those requirements.

                                 ______
                                 
                Questions Submitted by Hon. Dean Heller
    Question. Social Security is the bedrock of financial security for 
many retired Americans. In my home State, over 500,000 Nevadans today 
rely on Social Security. For many Nevadans, these benefits mean the 
ability to retire with dignity or the security of knowing that if they 
become disabled, they will be protected. This program has served as a 
vital safety net for retirees and disabled workers for over 75 years.

    In order to ensure that Nevada's current and future retirees 
receive the benefits they were promised and deserve, Congress has a 
responsibility to protect and preserve Social Security. If you are 
confirmed, you will be responsible for overseeing one of the Nation's 
largest and most important domestic programs.

    If confirmed, how do you intend to strengthen and preserve Social 
Security for current and future beneficiaries?

    Answer. I believe in protecting taxpayers' hard-earned dollars 
through the effective management of the Social Security programs. If 
confirmed as Commissioner, my focus will be on managing the agency and 
tackling the three key challenges I believe the agency faces: improving 
the disability adjudication process, including reducing wait times and 
appeals backlogs; modernizing the IT infrastructure; and increasing 
executive and management accountability.

    I also believe strongly in transparency and will work with you and 
Congress to ensure we act as good stewards of the programs. That said, 
I believe issues related to reforming the programs should be left to 
the Treasury Department and the legislative branch.

    Question. Last week, this committee had the Social Security 
Administration (SSA) Inspector General nominee before it to discuss the 
importance of detecting and combating waste, fraud, and abuse to ensure 
that those who qualify for Social Security receive their benefits 
without delay or error.

    If confirmed, how will you prioritize combating waste, fraud, and 
abuse to ensure that Nevada's seniors receive the benefits they have 
earned and deserve?

    Answer. I strongly believe that the agency must spend taxpayer 
dollars in an efficient manner. If confirmed, I will certainly work to 
combat waste, fraud, and abuse, and I will work closely and 
collaboratively with the Inspector General (IG) on these issues.

    Question. In your testimony, you cite several challenges facing the 
SSA--issues ranging from disability-determination backlogs to an aging 
IT infrastructure.

    If confirmed, how will you prioritize addressing these challenges 
and others facing the SSA? Specifically, how will you ensure those 
waiting for a determination on disability benefits are not left waiting 
months or years on end to get an answer?

    Answer. I share your concern about wait times, and I know the 
agency and Congress have been dealing with this issue for some time. 
Improving the disability adjudication process is one of my top 
priorities. If confirmed, I plan to take a close and thorough look at 
the entire process from start to finish, and review the agency's 
current plans. If changes need to be made, I will make them. I will 
also work with you and Congress in a transparent way to ensure we serve 
claimants and beneficiaries as best we can.

                                 ______
                                 
                 Questions Submitted by Hon. Tim Scott
    Question. I greatly appreciate your public and private commitment 
to prioritizing the enactment of the Protecting Children From Identity 
Theft Act, which comprises section 215 of S. 2155. Doing so will save 
countless Americans from becoming victims of synthetic ID fraud and the 
financial and emotional toll that comes with having your Social 
Security number stolen.

    Please answer the following with specificity.

    SSA staff has suggested the administration is more likely to build 
a whole new system to comply with this law versus simply upgrading 
existing technology resources. I'm concerned about the impact such a 
move will have on the ultimate cost for database users. What is your 
opinion on the best path forward?

    Answer. I am aware of the legislation and am committed to 
implementing it. I do not yet know the details of SSA's plans regarding 
construction of the system. If confirmed, I will look into this to 
determine if the current system could meet the statutory requirements 
and the needs of the end users, or if a new system is needed.

    Question. It was not my intention to make SSA a bank regulator. The 
administration has enough on its plate. Are you willing to work with 
the Federal banking agencies to find a simple way to verify that the 
entities accessing the system are, in fact, chartered and insured 
depository institutions or their intermediaries? And can you confirm 
that SSA will not develop or impose other requirements not authorized 
in section 215 of S. 2155, or otherwise re-interpret other existing 
regulations, precedents, or laws in relation to enactment of section 
215 of S. 2155?

    Answer. I agree that SSA is not and should not be a bank regulator. 
That is not the agency's mission. If confirmed, I will look into these 
issues to ensure SSA meets its statutory obligations under section 215 
of S. 2155 and other applicable laws.

                                 ______
                                 
                Questions Submitted by Hon. Bill Cassidy
    Question. I asked a similar question to another nominee a few 
months ago. I'd like to reiterate it here and get your thoughts.

    I am very concerned about Social Security and Medicare, and I'm 
committed to protecting these benefits for workers. If we do nothing, 
benefits will be subject to harsh cuts. And this is not some problem 
for years down the road, it is at our doorstep.

    To address the Social Security shortfall today, we will be looking 
at a 17-percent across-the-board benefit cut. If we limit cuts to 
future retirees, the cut for them would be 21 percent. If we wait until 
2034 to address Social Security, the across-the-board cut would be 23 
percent. Trying to limit cuts to future retirees becomes unfeasible at 
that point.

    Also, we're told the Medicare Hospital Trust Fund has an insolvency 
date of 2026. A key problem on the Medicare side is skyrocketing 
health-care costs. I'm working with colleagues to address the cost side 
to help put these health benefits on a better path. Inaction on these 
issues is not an option as it means benefits will be subject to harsh 
cuts.

    What are your thoughts on how to begin to address this issue?

    Answer. The Social Security programs touch the lives of almost 
every American, and your question gets to the heart of a critical 
issue. That said, I believe issues related to solvency and reforming 
the programs should be left to the Treasury Department and the 
legislative branch. I stand ready to assist in providing technical 
information. However, as I mentioned at my hearing, if I am confirmed 
as Commissioner, my focus will be on managing the agency and 
administering the programs as designed by Congress.

    Question. Another point I'd like to highlight. The Social Security 
budget window is generally given a longer time horizon than our typical 
10-year period. The 75-year actuarial balance is a key metric that 
experts use.

    But this 75-year actuarial balance must be thoughtfully considered. 
For example, the metric could be applied to show tax increases as a 
more efficient way to shore up the trust funds. This is misplaced. What 
really matters is the actuarial balance in the 75th year--otherwise we 
are counting a generation's tax contributions to the trust fund, but 
not the benefits that generation will draw down.

    Do you have any thoughts on getting the correct methodology and 
data as we look at policy options to preserve workers' benefits?

    Answer. I appreciate the question. That said, I do not have an 
opinion regarding the correct methodology. I would defer to the Office 
of the Chief Actuary regarding the correct measure of actuarial 
balance.

    Question. I have concerns with the Social Security Windfall 
Elimination Provision (WEP) and the Government Pension Offset (GPO). 
This is of utmost importance to public-sector workers in my home State 
of Louisiana, who may be whipsawed by outdated formulas and uneven 
application of the rules.

    What are your thoughts on this issue and how can Congress and the 
SSA work together to address a broader formula fix, and to ensure WEP 
and GPO determinations are made consistently and fairly for all 
beneficiaries?

    Answer. I understand that SSA administers the Social Security 
programs under the Social Security Act. If confirmed, I would provide 
assistance regarding the technical aspects of statutory requirements 
related to Social Security coverage for State and local government 
workers, as well as SSA's administration of those requirements.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
    Question. What do you see as the greatest challenges facing SSA?

    Answer. In my view, the Social Security Administration faces three 
key challenges: improving the disability adjudication process, 
including reducing wait times and appeals backlogs; modernizing the IT 
infrastructure; and increasing executive and management accountability.

    Question. What will be your top priorities if confirmed as 
Commissioner?

    Answer. My top priorities will be addressing the key challenges 
mentioned above--improving the disability adjudication process, 
modernizing IT, and improving accountability--to ensure the agency 
provides accurate, efficient, and timely service to Social Security 
beneficiaries and the American public.

    Question. Why do you believe you are the right person to eliminate 
the backlog of cases in the disability program, and what is your plan 
to improve customer service?

    Answer. Based on my particular experience in both the public and 
private sector, I have a deep appreciation for serving the public--
whether it's a customer at a local apparel store or a Federal employee 
seeking to improve his or her retirement security. Serving the public 
has always been, and will continue to be, my primary focus. The decades 
I spent managing national retail chains have helped prepare me for the 
operational and technological challenges SSA faces in administering 
national programs through local offices. My work modernizing IT at the 
Federal Retirement Thrift Investment Board (FRTIB) will also be 
valuable. Today, the Thrift Savings Plan (TSP) is much different than 
it was when I joined the Board. At that time, its systems were in bad 
shape; today, the TSP's website and customer service delivery are 
vastly improved and the TSP itself is considered one of the most 
successful 401(k) plans in the country.

    I share your concerns regarding the disability program and customer 
service, and, if confirmed, I will devote my attention to these issues.

    Question. Will you commit to maintain the field office option for 
our constituents who need or prefer to meet fact-to-face with a real 
person?

    Answer. I appreciate that your question raises an issue of great 
importance to the public and to Congress. I strongly believe in 
efficient, timely and accurate service, and in providing that service 
through the right balance of service delivery. If I am confirmed, I 
pledge to be transparent in dealing with the agency's field office 
structure.

    Question. What was your involvement with the Manhattan Institute? 
Please be specific regarding the dates and the level of your 
involvement as a board member.

    Answer. In the 1990s, the Manhattan Institute was focused on 
efficient local and State government in New York State, and that is 
what interested me, as I was Vice Chairman of the MTA as a Commissioner 
from Westchester County. I was a contributor, and board member of the 
Manhattan Institute from 1994 to 2008. However, when I became Chair of 
the FRTIB in 2002, I did not actively follow the activities of the 
Manhattan Institute. I was not involved in, or familiar with, any work 
related to privatizing Social Security.

    Question. Did you support efforts to privatize Social Security 
during the Bush administration?

    Answer. I was not involved in efforts to privatize Social Security 
during the Bush administration.

    Question. Do you support efforts to privatize Social Security now?

    Answer. If confirmed as Commissioner, my focus will be on managing 
the agency, serving the millions of Social Security beneficiaries and 
the American public, and administering the programs as designed by 
Congress. I believe issues related to privatization or reforming the 
programs should be left to the Treasury Department and the legislative 
branch.

    Question. During the campaign, what did candidate Trump say about 
Social Security?

    Answer. As I recall, candidate Trump said he would not cut Social 
Security.

    Question. How do you explain that the Trump budgets call for more 
than $70 billion in cuts to Social Security?

    Answer. My understanding is that individuals with disabilities have 
relatively lower rates of labor force participation. As I understand, 
the President's budgets are proposing the testing of alternative 
program designs to help individuals with disabilities stay in the labor 
force and assist individuals with temporary disabilities return to 
work. I understand that the budgets envision that these alternative 
program designs could lead to a reduction in Social Security Disability 
Insurance (SSDI) and Supplemental Security Income (SSI) projected 
outlays over a 10-year period. My understanding is that the budgets are 
not proposing a change in the benefit formula or eligibility criteria, 
but rather envision that through these program designs more individuals 
with disabilities would remain in the labor force and would not seek 
benefits under SSDI or SSI.

    * If you answered the above question by stating that Trump was 
referring to the retirement program and not the disability program, I 
believe that is very misleading. Social Security is one program, two 
trust funds, and three types of protection: life insurance, retirement 
insurance, and disability insurance. All three protections use the same 
work history, the same benefit formula, and receive the same COLA. All 
are earned benefits. Please be very clear about that, if you are 
confirmed.

    Question. If confirmed, do you pledge to this committee and to the 
American public that you will run the Social Security Administration in 
an independent and non-partisan manner?

    Answer. If confirmed, I pledge to serve Social Security 
beneficiaries and the American public in a non-partisan manner.

    Question. In 2014, I chaired a Finance Committee hearing titled 
``Social Security: A Fresh Look at Workers' Disability Insurance.'' 
That hearing debunked many myths regarding the disability program, such 
as it is easy to get benefits or that the program had unexplained 
growth. Recently, we have seen a decline in the applications for the 
program. Part of the decline is due to the country finally escaping the 
biggest financial collapse since the Great Depression, and better 
access to health care through the ACA has played a significant role. 
Rather than racing to the ER and racking up a colossal hospital bill, 
newly insured Americans, either through Medicaid or health insurance 
they purchased on the exchange, are finally able to go to a doctor's 
office and receive treatment sooner.

    Do you think access to health-care services would reduce the chance 
that a person would need to apply for disability benefits?

    Answer. You raise an interesting question, but I am not in a 
position to provide an opinion at this time. I am aware that the 
President's budgets for the past 2 years have had proposals to test 
reforms to the disability program to increase workforce participation, 
and that such proposals included certain interventions to assist 
individuals with disabilities. This may be a potential area of future 
focus for SSA.

    Question. The National Council on Disability stated: ``Receipt of 
Social Security disability benefits is merely the last stop on a long 
journey that many people with disabilities make from the point of 
disability onset to the moment at which disability is so severe that 
work is not possible. All along this journey, individuals encounter the 
policies and practices of the other systems involved in disability and 
employment issues.''

    This quote points out that we could reduce the number of people who 
need disability benefits by improving and expanding the other systems 
that should help workers before they apply for disability benefits.

    There are many pushing radical and complex changes to the 
disability program, but most, if not all, of these changes do not 
address the factors that lead to a disability in the first place. My 
view is real improvement will come from universal health care, boosting 
the minimum wage and the Earned Income Tax Credit, improving 
transportation options, and proving meaningful paid leave for all 
American workers.

    That is where my focus will be, and I ask you to keep those issues 
in mind when thinking about any proposed changes to the disability 
programs at SSA.

    Answer. I appreciate hearing your views and will certainly keep 
these issues in mind.

    Question. I think you will soon learn--if you do not know it 
already--that SSA has an extremely dedicated workforce who believe in 
SSA's mission wholeheartedly. It is not unusual to meet an employee who 
started at SSA while in high school and has been with SSA for their 
entire career, often progressing through various roles and 
responsibilities.

    I think you also know that many of the groups that represent 
employees often meet with members of Congress to discuss the labor-
management relationship at the agency. The reports have not been good, 
and got worse since the Trump administration issued its three executive 
orders eviscerating the role of Federal labor unions. The executive 
orders undermine the decades-old rights of Federal employees to fair 
representation in the workplace by imposing arbitrary limits on 
official time, official travel, and even the use of office space and 
equipment. While the Federal District Court judge in DC struck down 
most provisions of the executive orders, the Trump administration 
decided last week to take a second crack at it and appealed the ruling. 
It seems to me that the Trump administration seeks to demoralize the 
Federal workforce and make it harder for the Federal Government to hire 
and retain quality employees. Without a highly engaged and motivated 
workforce, SSA's service to the public will suffer.

    Putting aside the administration's executive order and the lawsuit, 
what steps do you plan to take to improve the communication and 
relationships with the various organizations that represent the 
employees at SSA?

    AAnswer. At the FRTIB, I found the vast majority of employees to be 
diligent, hardworking, and concerned about the success of the programs. 
In fact, many senior staff and employees were there since the inception 
of the Board. My record at the Board demonstrates my dedication to 
transparency with organizations that represent Federal employees. I am 
very proud that all 14 Federal unions wrote to then President-elect 
Obama to request that I remain at the Board as Chairman after President 
Bush's term expired. If confirmed, I would similarly look to establish 
such relationships with the various organizations that represent SSA 
employees.

    Question. If you are confirmed, how will you ensure that Americans' 
data and personal information are protected and safe from cyber-attacks 
at every stage of SSA's business operations?

    Answer. Your question touches upon a critical issue. I share your 
concern about cybersecurity and the potential for cyber-attacks, and 
will work to make sure we have the experts we need at the agency to 
improve the security of its IT systems and protect the vital data 
maintained by SSA. Cyber-threats are constantly evolving and the 
agency's security systems and processes must be able to evolve as well.

    Question. Please tell me why SSA has not implemented NIST's 
guidance regarding passwords and the use of Universal Second Factor 
(U2F) technology, as I suggested in two separate letters to SSA?

    Answer. I am not familiar with details of this particular request, 
as I have had limited interactions with the agency, pending the 
Senate's consideration of my nomination. If confirmed, I will review 
the National Institute of Standards and Technology guidance and your 
correspondence.

    Question. In July, SSA informed Congress that it was reinstating 
the reconsideration appeals step in the 10 prototype States. SSA is 
making this major change despite bipartisan opposition from members of 
Congress and without providing any significant data or study showing 
the impact of eliminating the reconsideration step. Further, the 
reconsideration step is widely considered to be a ``rubber stamp'' 
appeals step because DDS staff often make no effort to further develop 
the claimant's record. Yet, SSA plans to reinstate the reconsideration 
step without any proposal or plan to improve the reconsideration step, 
despite having nearly 50 years of reconsideration redesigns.

    What will you do to respond to concerns made by members of 
Congress?

    Answer. I am aware of the issues regarding reinstating 
reconsideration in the 10 prototype States. The disability wait times 
and backlogs are unacceptable, and I know the agency and Congress has 
been dealing with these issues for some time. If I am confirmed, one of 
my top priorities will be to review the disability adjudication process 
at all levels, from start to finish, and to work with agency experts 
and other stakeholders to explore options for improving the process 
while being mindful of agency resources and taxpayer dollars.

    Question. Will you commit to meeting personally with the advocacy 
community on a quarterly basis, as was done for many years prior to 
2017?

    Answer. I think transparency is an important aspect of effective 
agency management and program administration. If confirmed, I will 
assess the frequency with which meetings with the advocacy community 
and other stakeholders should take place.

    Question. How will you use information gained from the quarterly 
meetings with the advocacy community to make informed decisions about 
SSA's programs and other responsibilities?

    Answer. I am committed to reviewing the entire disability 
adjudication process and workloads from start to finish. Feedback from 
the advocacy community, as well as from other stakeholders, will inform 
my review of the current process, options for potential improvements, 
and evaluations of policy and process changes.

    Question. In 2010, SSA projected that the pending level on initial 
disability claims would exceed 1 million cases. In response, the agency 
created Extended Service Teams (ESTs) in four DDSs and hired additional 
staff for the Federal disability units. Today, initial disability claim 
receipts are much lower and SSA is confronted with a 1 million case 
backlog of pending disability hearings. What will you do to redirect 
and train staff in these units to support the reduction of the hearings 
backlog?

    Answer. Resources should be spent where they are needed. My goal is 
to serve beneficiaries and the American public. To do that, I believe 
we must monitor workloads carefully, and be flexible and responsive in 
our deployment of resources to ensure we meet emerging needs.

    Question. What are your views on staffing front-line positions, 
including management, in SSA's field offices and teleservice centers?

    Answer. In my 20 years in the retail industry, I learned that 
serving the consumer is the key to success. The government's service to 
the public is similar in principle. I understand the important role 
field offices and teleservice centers play in delivering service and 
maintaining personal contact with the public throughout the Nation. In 
recognition of their importance, and as I committed to you during the 
hearing, I will visit, not just Oregon, but other locations around the 
country so I can fully understand how services are delivered.

    Question. SSA has restricted the number of managers and supervisors 
in many field offices and teleservice centers. SSA workloads continue 
to grow and management in many offices are sometimes challenged to 
oversee all the workloads and complete necessary administrative duties. 
What is your view regarding the number of managers and supervisors in 
SSA field offices and teleservice centers relative to the number of 
non-management staff?

    Answer. I do not yet have enough information to have a specific 
view on the appropriate number of managers and supervisors in field 
offices and teleservice centers, but I think this is an important 
question that should be reviewed. I also think one size does not fit 
all.

    Question. What is your plan for ensuring SSA provides a quality 
workforce in terms of hiring, training and retaining staff when the 
yearly increase in SSA's administrative budgets often do not cover the 
yearly increased fixed costs facing the agency?

    Answer. As I have had limited interactions with the agency, I do 
not yet have sufficient details to put forward a plan regarding hiring, 
training, and retaining staff. If I am confirmed, I will look at the 
agency's budget and personnel. I want to ensure we use taxpayer dollars 
efficiently and effectively, and will shift resources as appropriate. 
If I find that additional resources are warranted, I will say so.

    Question. What is your plan for building and maintaining 
relationships with the National Council of Social Security Management 
Associations, the American Federation of Government Employees, and the 
Social Security Advisory Board?

    Answer. I believe the position to which I have been nominated 
dictates that I work with many partners--Congress, the public, unions, 
and the Social Security Advisory Board--in a non-partisan fashion. My 
record at the FRTIB demonstrates my dedication to non-partisanship and 
the public I serve. I am very proud that all 14 Federal unions wrote to 
then President-elect Obama to request that I remain at the Board as 
Chairman after President Bush's term expired.

    Question. What actions will you take to increase awareness of the 
SSDI and SSI work incentives?

    Answer. If confirmed, I will review the agency's current strategies 
for increasing awareness of work incentives. I am aware of proposals in 
the last two President's budgets to test new approaches to promote 
greater workforce participation of people with disabilities.

    Question. What are your plans for reviewing, supporting, and 
adjusting the work incentives in SSDI and SSI?

    IAnswer. If confirmed, I will review the existing work incentives 
and assess to what extent they could be improved through regulation or 
other means to help support beneficiaries who seek to return to work.

    Question. What is your view on the role of field offices as a part 
of SSA's service delivery operations?

    Answer. I understand the important role field offices and 
teleservice centers play in delivering service and maintaining personal 
contact with the public throughout the Nation. As I mentioned earlier, 
I plan to visit locations around the country so I can understand fully 
how service is delivered. I also understand the important role that 
online services play. To provide the best service to the public, we 
have to have the right balance of services. If confirmed, I plan to 
review our customer service strategies.

    Question. What are your priorities for customer-facing service at 
SSA field offices?

    Answer. I believe in efficient, timely, and accurate service. In my 
experience, it's critical to give front-line employees the tools they 
need to do the job right. That means listening to what employees need 
and then pairing it with the right technology. I understand the agency 
has a 5-year IT modernization plan, which focuses on meeting the needs 
of the public and employees. If confirmed, I will spend some time 
reviewing the plan, in addition to visiting local offices to hear from 
front-line employees, and make changes as needed.

    Question. What will you do to make sure claimants are better 
informed about the SSDI claims process?

    Answer. This is an interesting question, and one I will pose to 
front-line employees as I visit local offices. As the agency's ``boots-
on the ground,'' they will have unique insight into the processes and 
policies that seem the most difficult for the public to understand. If 
confirmed, I will also look at our entire communications strategy on 
the SSDI claims process.

    Question. Would SSA benefit from a ``National Claimant Advocate'' 
similar to the ``National Taxpayer Advocate'' at the IRS?

    Answer. I will assess the reasons for such an advocate at the IRS 
and whether such an advocate could play a similar role at SSA.

    Question. My office has been contacted with concerns about 
Continuing Disability Reviews (CDRs). There are disability cases from 
all parts of the United States that were not properly developed and the 
evidence that lead to the initial award of benefits is not included in 
the record, per existing regulations. Without this Comparison Point 
Decision (CPD), it would be difficult or impossible to make a finding 
of medical improvement, which is necessary under the medical 
improvement review standard (MIRS) for CDRs. The allegation is that 
instead of acknowledging that cases were not property developed and the 
relevant evidence is not in the case, SSA adjudicators are making new 
findings, and then conclude that there must be improvement.

    Are you aware of this problem with CDRs, and what steps will SSA 
take under your leadership to improve this issue?

    Answer. This is not an issue I am familiar with, but, if confirmed, 
I will certainly learn more about it and determine the appropriate 
course of action.

    Question. I am very interested in SSA's work on Targeted Denial 
Reviews (TDR), which are a part of the CARES plan to improve service in 
disability case processing. Under your leadership, will SSA consider 
expanding the use of TDRs? Will SSA review an equal number of 
allowances and denials of initial disability determinations?

    Answer. One of my top priorities will be to review the disability 
adjudication process at all levels and work to improve it to better 
serve claimants and beneficiaries. As part of my review, I will look at 
how the agency selects cases for TDRs and whether expansion of the 
initiative is warranted.

    Question. SSA uses more administrative law judges (ALJs) than any 
other Federal agency. The President issued an executive order that 
calls for new ALJ appointments to be made under the excepted service, 
rather than the competitive service eliminating the Office of Personnel 
Management (OPM) qualification exam and appointment process. OPM has 
issued guidance confirming that all ALJs must be appointed by the 
agency head to positions in the excepted service, but left the criteria 
and procedures for ALJ qualification, probationary periods, and removal 
for agency heads to clarify. For example, while OPM directs that 
agencies ``follow the principle of veterans' preference as far as 
administratively feasible,'' it is unclear how such guidance will be 
applied by individual agencies. SSA has informed me that they have not 
yet developed their criteria and procedures to appoint ALJs. If 
confirmed, how will you guide the Social Security Administration's 
(SSA) development of a new excepted service hiring process for 
prospective ALJ appointees and what will you do to ensure that the new 
process leads to well-qualified, impartial ALJs with subject matter 
expertise?

    Answer. I appreciate your concerns about the recent executive order 
on administrative law judges. I will always follow merit-based 
principles in hiring all employees including ALJs. I also want to note 
that I believe ALJs should maintain their decisional independence. If 
confirmed, my focus will be on hiring the best people to do the job.

    Question. In 2017, the U.S. Commission on Evidence-Based 
Policymaking presented Congress and the President with a unanimous set 
of recommendations to make better use of government data to inform 
policy decisions. If confirmed, will you commit to taking steps at SSA 
to implement the commission's recommendations? Specifically, will you 
commit to direct SSA to develop a learning agenda to identify evidence 
priorities and to designate a chief evaluation officer to facilitate 
the use of evidence at SSA?

    Answer. I agree that the government should make better use of data 
when deciding policy. If confirmed, I will look at the commission's 
recommendations on how the agency can better use data and what steps 
should be made administratively to facilitate the use of evidence at 
SSA.

    Question. In 2003, the New York State Comptroller investigated the 
MTA's 2002 financial plan, which projected a $951-million deficit and 
included fare hikes to offset the deficit. However, the Comptroller's 
office found that the MTA had two versions of its financial plan: a 
public version and a private version, the latter showing a $537.1-
million surplus. At the time, you were reportedly the Chairman of the 
MTA Audit Committee. While you have explained this situation to the 
committee in staff interviews, those responses have not been made 
public. Please explain your involvement in developing the MTA's 2002 
financial report as an MTA board member, and your involvement in its 
review process as Chairman of the MTA Audit Committee. Please also 
explain the 2003 State Comptroller's report findings and how those 
findings were resolved by the MTA and your role in that resolution if 
any.

    Answer. There was only one financial plan for the MTA, and any 
allegation to the contrary was simply false. As Chairman of the Audit 
Committee, I strived to ensure full transparency with the MTA's 
financial reporting. During my tenure, we changed procedures so that 
all financial reporting was timely presented and made publicly 
available on MTA's website. In addition, MTA's annual financial 
statements were audited, reviewed, and certified by Deloitte and 
Touche, and were made publicly available.

    Question. The committee has received a letter from outside 
organizations implying that in 2007 you accepted Federal campaign 
contributions from entities seeking to do business before the MTA, 
contrary to New York law. Please explain whether or not you received 
such contributions and whether or not such contributions violated New 
York law.

    Answer. In 2007, I sent a letter to family and longstanding friends 
seeking financial support for my campaign. I did receive contributions 
from some family and longstanding friends. For personal reasons, I 
withdrew from the campaign well before the primary, and all the funds 
raised were returned. As far as I am aware, there was no inquiry 
relating to these contributions. Subsequent to this, I was re-nominated 
to serve with the MTA several times, including most recently by 
Governor Cuomo (and confirmed by the N.Y. Senate) in 2016.

    Question. In the same letter mentioned above, the allegation is 
made that in 2007 you established a campaign for a seat in Congress and 
accepted political contributions in possible violation of the Hatch Act 
due to your position as Chairman of the Federal Retirement Thrift 
Investment Board.

    Please explain whether or not you engaged in these campaign 
activities and the extent to which they were subject to the Hatch Act.

    Did you consult with your agency's ethics officer about these 
activities and what advice did you receive?

    Answer. As Chair of the FRTIB, I was classified as a special 
government employee. As I understand, a special government employee is 
subject to the Hatch Act only at the time such employee works on agency 
matters (5 CFR 734.601). To the extent I engaged in campaign 
activities, I did so at times I was not subject to the Hatch Act.

    I believe I did consult with the ethics office at the FRTIB. It was 
my practice to consult with the ethics office on possible ethics 
issues, and I would continue such practice at SSA, if confirmed.

    Question. In the same letter cited above, the allegation is made 
that in 2012 you failed to cooperate with a local law enforcement 
officer. While you have explained this situation to the committee in 
response to the committee's questionnaire and due diligence review, 
those responses have not been made public. Please explain the 2012 
incident.

    Answer. In 2012 I had a biking incident at a New Yok City reservoir 
roadway across from my home in Westchester. I was briefly detained by 
the Department of Environmental Protection Office for riding a bike on 
a questionably controlled roadway. I was not charged nor issued a 
summons.

                                 ______
                                 
               Question Submitted by Hon. Debbie Stabenow
    Question. For the past 2 decades, Michigan has been one of 10 
States involved in a prototype project that eliminated the 
reconsideration level, the second step in the Social Security appeals 
process. In July 2018, the Social Security Administration informed 
Congress of its intention to reinstate reconsideration in the 10 
affected States. In just Michigan alone, approximately 3,200 claimants 
would receive their benefits quicker if the reconsideration level was 
reinstated. However, 21,288 claimants would experience longer wait 
times and 5,307 would drop out of the process completely due to the 
extra step. For over 85 percent of applicants, reinstatement of 
reconsideration would increase the decision making process from the 
current 600 days to over 700 days.

    If confirmed as SSA Commissioner, what steps will you take to 
address and alleviate the longer wait times applicants will experience 
as a result of this decision?

    Answer. I am aware of the agency's plan to reinstate 
reconsideration. As I said during the hearing, improving the disability 
adjudication process, including reducing wait times and appeals 
backlogs, is one of my top priorities. The wait times and appeals 
backlogs are unacceptable, and I am committed to reviewing the entire 
disability adjudication process from start to finish. I will devote my 
attention to this critical issue, if confirmed.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
    Question. Administrative law judges (ALJs) perform adjudication of 
Social Security benefit cases, such as appeals. It is essential that 
they remain independent and not politically influenced in making 
decisions about earned benefits. However, in July the President issued 
an executive order to reclassify ALJs so they can be selected based on 
their political views. That is why I introduced a bipartisan bill--S. 
3387--to restore the ALJs to the competitive service.

    If confirmed, will you commit to respecting the independence of 
ALJs at the Social Security Administration?

    What steps would you take to restore them to the ``competitive 
service'' system?

    Answer. If confirmed, I will commit to respecting the decisional 
independence of ALJs at SSA. In addition, I will always follow merit-
based principles in hiring all employees including ALJs. My focus will 
be on hiring the best people to do the job.

    Question. Washington seniors need in-person help with their earned 
Social Security benefits, whether that is applying for benefits or 
speaking to someone face to face. But nearly 1 in 10 Social Security 
field offices has closed since 2000, according to a Washington Post 
article, while wait times have increased. In 2012, Social Security 
benefits offices in the Belltown and International District 
neighborhoods of Seattle were merged into the Jackson Federal Building, 
forcing beneficiaries to make a trip to downtown Seattle, often 
requiring complicated public transportation logistics. This is 
happening as 10,000 baby boomers reach retirement age each day.

    If confirmed, will you commit to reviewing how these field office 
closures are affecting access and wait times?

    How would you prioritize in-person services for beneficiaries?

    Given that many beneficiaries are elderly and lack easy online 
access, how would you balance in-person and online services?

    Answer. I believe in efficient, timely and accurate service, and in 
providing that service through the right balance of service delivery. I 
will certainly commit to reviewing the agency's service delivery plans, 
including field office closures and their effect on access and wait 
times, if confirmed.

    Question. I understand that from 1994-2008, you were a board member 
of the Manhattan Institute, a policy organization that has promoted the 
privatization of Social Security, during the same time frame in which 
the Bush administration proposed partial Social Security privatization. 
In 2008, the Great Recession ensued, greatly reducing the savings of 
retirees and pensions investments while Wall Street got bailed out.

    As a policy matter, what do you think about proposals to divert 
Americans' Social Security into the stock market, i.e., privatization 
proposals?

    If confirmed, I assume you would play a role in advising the 
Treasury and the White House on policy changes to Social Security, 
including the President's budget proposal. How would you exercise that 
role? How would you advise them on proposals to reform Social Security?

    Answer. If confirmed as Commissioner, my focus will be on managing 
the agency, serving the millions of Social Security beneficiaries and 
the American public, and administering the programs as designed by 
Congress. I believe issues related to privatization or reforming the 
programs should be left to the Treasury Department and the legislative 
branch. I would provide assistance regarding the technical aspects of 
proposals, if confirmed.

    Question. Unionized Federal employees in Washington State who work 
for the Social Security Administration have expressed deep concerns to 
my office about their legal rights in the workplace, specifically as it 
relates to official time and collective bargaining. This is especially 
true after the President's executive orders issued earlier this year, 
which would undermine collective bargaining rights of Federal 
employees. Despite a recent court ruling reversing the executive 
orders' collective bargaining proposal, some Washington State Federal 
employees report that the agency is not respecting this ruling.

    How specifically would you ensure that unionized agency employees 
can exercise their legal rights, including collective bargaining?

    If confirmed, will you commit to following the court ruling on 
collective bargaining rights for Federal workers?

    Answer. Please be assured that if I am confirmed as Commissioner, I 
will follow the law and act transparently and in good faith when 
working with the public-sector unions at the agency.

    My record at the FRTIB demonstrates my dedication to transparency 
with organizations that represent Federal employees. I am very proud 
that all 14 Federal unions wrote to then President-elect Obama to 
request that I remain at the Board as Chairman after President Bush's 
term expired.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
    Question. During the hearing, you stated that you terminated your 
association with the Manhattan Institute when you were appointed to the 
Federal Retirement Thrift Investment Board, but your questionnaire 
lists the end date of your association with the Manhattan Institute in 
2008. Could you clarify your statements from the hearing?

    Answer. In the 1990s, the Manhattan Institute was focused on 
efficient local and State government in New York State, and that is 
what interested me, as I was Vice Chairman of the MTA as a Commissioner 
from Westchester County. I was a contributor and board member of the 
Manhattan Institute from 1994 to 2008. However, when I became Chair of 
the FRTIB in 2002, I did not actively follow the activities of the 
Manhattan Institute. I was not involved in, or familiar with, any work 
related to privatizing Social Security.

    Question. What your involvement was with the Manhattan Institute 
while you were on the Thrift Board?

    Answer. As stated above, when I became Chair of the FRTIB in 2002, 
I became inactive at the Institute and remained so throughout my tenure 
as Chair.

    Question. During the hearing, you mentioned you would be 
undertaking a review of the management structure of the Social Security 
Administration (SSA) to ensure the organization has the management 
structure necessary to run well as a modern and large organization. 
However, we already know that since 2010, there have been staff cuts of 
12 percent and that claims have been backing up.

    What is your understanding of the negative impact staff cuts have 
had on front-line service?

    Answer. If confirmed, I will look at the agency's budget, 
personnel, and delivery of service. I want to ensure that we use 
taxpayer dollars efficiently and effectively. If I find that additional 
resources are warranted, I will say so.

    Question. Will you commit to working with this committee to improve 
security of sensitive information at the SSA?

    Answer. Yes. I share your concern about ensuring the security of 
the sensitive data SSA collects and maintains. If confirmed, I will 
work to make sure we have the experts we need at the agency to improve 
the security of the agency's IT systems and protect the vital data 
maintained by SSA. Cyber-threats are constantly evolving and the 
agency's security systems and processes must be able to evolve as well.

                                 ______
                                 
             Questions Submitted by Hon. Benjamin L. Cardin
    Question. This August, SSA was slow to comply with Judge Ketanji 
Brown Jackson's decision to reverse the executive orders relating to 
union collective bargaining agreements. Additionally, SSA had been 
particularly harsh among Federal agencies in its enforcement of these 
executive orders, having reduced official time, confiscated union 
equipment, and locked union members from their spaces.

    Should you be confirmed, how will you ensure that SSA will be fair 
and balanced in its relations with its Federal employee unions?

    Answer. If confirmed as Commissioner, I will follow the law and act 
transparently and in good faith when working with the public sector 
unions at the agency. My past history as Chair of the FRTIB highlights 
this.

    Question. What actions will you take to ensure that the next 
collective bargaining agreement is in compliance with Judge Jackson's 
ruling?

    Answer. If confirmed as Commissioner, I would abide by judicial 
opinions that affect the SSA.

    Question. Telework is a well-established and accepted practice 
within the Federal Government. SSA management has used telework to 
discipline SAA employees by threatening to take away employees' right 
to telework.

    If confirmed, will you review SSA telework practices and strive to 
stop the current practice of using the ability to telework as a way to 
discipline employees?

    Answer. I understand that telework is governed through a framework 
of laws and regulations. If confirmed, I will review SSA's telework 
practices to ensure they are consistent with these laws and 
regulations.

    Question. I have been paying close attention to the issue of field 
office closures, and particularly that of the Baltimore North office, 
which occurred in June 2018. SSA has planned to consolidate its 
employees and workloads from both the Baltimore North as well as its 
Arlington field offices into others in the area. Many beneficiaries 
are, however, in a poor physical or mental condition for traveling long 
distances, do not possess vehicles, and/or live alone without any 
family, friends, or caretakers to assist them.

    If confirmed, how would you analyze the impact of each field office 
closure?

    Answer. I recognize that this issue is one of great importance to 
the public and to Congress. I believe in efficient, timely and accurate 
service, and in providing that service through the right balance of 
service delivery. If I am confirmed, I pledge to be transparent in 
dealing with the agency's field office structure.

    Question. What steps would you take to ensure that SSA does not 
overburden certain field offices that have to now double their 
workloads due to closures?

    Answer. If confirmed, one of my top priorities will be to look at 
SSA's structure, including its management, to ensure that the agency is 
properly positioned to provide quality service to beneficiaries.

    Question. How would you ensure that beneficiaries receive 
sufficient notice of any closure or disruption to field office service, 
as well as recommendations from SSA?

    Answer. If confirmed, I will look into the issues surrounding 
communications to communities served by field offices. Specifically, I 
will consider recommendations made by the OIG, as well as input from 
key stakeholders.

    Question. How would you ensure that program beneficiaries who may 
not be able to travel longer distances to other offices receive the 
support and service they need?

    Answer. I understand the important role local offices play in 
delivering service and maintaining personal contact with the public. I 
also understand the important role that online services play. To 
provide the best service to the public, we have to have the right 
balance of services, which includes considering the needs of 
beneficiaries. If confirmed, I plan to review the agency's customer 
service delivery to ensure we have that balance. I also plan to be 
transparent in dealing with the agency's field office structure.

    Question. SSA has emphasized its vision for expanded online 
services, perhaps as a substitute for field offices. Polling 
consistently shows that program beneficiaries, who are often not 
technologically savvy, prefer applying for benefits and raising 
questions and claims at field offices with staff representatives, or by 
voice over the phone. The amount of people entering field offices in 
2018 is at a level similar to that of 2000, suggesting that field 
offices continue to provide essential services to the public.

    What steps would you take to balance SSA's need for IT 
modernization and an improved online presence with its field office 
activities?

    Answer. As I said during the hearing, one of my top priorities will 
be to look at IT modernization. I believe improved IT would serve to 
both improve online presence and to help local offices deliver services 
to beneficiaries.

    Question. You have noted in your earlier responses to this 
committee that you will be sure to make a serious and thorough 
consideration of all the factors at play before making a decision to 
close a field office.

    What would such a review on your part look like?

    Which parties and interests would you be considering?

    Answer. As I said during the hearing, local Social Security offices 
provide important services to the beneficiaries and the agency has to 
be deliberate in making changes. As I have had limited interactions 
with the agency, pending Senate confirmation of my nomination, I do not 
currently have criteria that would be considered in such a review. If 
confirmed, I look forward to discussing this area with the agency.

    Question. The Social Security Administration has endured years of 
budget cuts and freezes that have taken their toll on the agency's 
service capabilities. Since 2010, the staff has been reduced by 12 
percent, approximately 70 field offices have been shuttered, hours of 
public operation have been reduced, and there is a record high backlog 
in disability appeals. SSA's service delivery has also dipped in 
quality. A significant number of callers to SSA's national 1-800 number 
do not get their questions resolved. As hold times have risen, nearly 
half of callers hang up before connecting and a growing number get busy 
signals. Meanwhile, the average wait for a disability appeal has 
stretched to 20 months. Further cuts would force the agency to freeze 
hiring, furlough employees, shutter more field offices, or further 
restrict field office hours, causing yet longer wait times for 
taxpayers and beneficiaries. Although the agency received a notable 
increase in its budget in FY18, much of those funds went to IT 
improvement and reducing the backlog, not front-line service.

    How would you prioritize service at field offices and teleservice 
centers to ensure that SSA is able to respond to the needs of a growing 
beneficiary population?

    Answer. I understand the important role field offices and 
teleservice centers play in delivering service and maintaining personal 
contact with the public. That said, I also understand the important 
role that online services play. To provide the best service to the 
public, we have to have the right balance of services. If confirmed, I 
plan to review our customer service strategy to ensure we have that 
balance for our beneficiaries.

    Question. How do you plan to ensure the levels of staffing needed 
for quality service?

    What budgetary needs do you anticipate SSA requiring in your term? 
Further, what steps would you take to secure those needs?

    Answer. I do not yet have sufficient details to put forward a plan 
regarding hiring, training, and retaining staff. If confirmed, I will 
look at the agency's budget and personnel. I want to ensure we use 
taxpayer dollars efficiently and effectively, and will shift resources 
as appropriate. If I find that additional resources are warranted, I 
will say so.

    Question. Earlier this summer, President Trump signed an executive 
order that removed administrative law judges (ALJs) from the 
competitive civil service, to be selected by agency leadership rather 
than being independently vetted by the Office of Personnel Management. 
I have written to you earlier this year about my concerns about the 
ALJs, who are very critical to the operations and services of Social 
Security.

    How will you ensure that the independence and integrity of SSA's 
ALJs are protected and free from any political influence?

    Answer. I will always follow merit-based principles in hiring all 
employees, including ALJs. I also want to note that I believe ALJs 
should maintain their decisional independence. If confirmed, my focus 
will be on hiring the best people to do the job.

    Question. I am very concerned about the disability backlog and the 
de facto SSA quota of 500-700 cases per year per ALJ. A judge handling 
500 cases per year would take approximately 2.5 hours to adjudicate a 
case--2.5 hours to read a file, hold a hearing, make a decision, and 
then draft the decision. The ALJs have done the only case time study we 
are aware of, and that study indicates it takes an ALJ an average of 
7.5 hours to decide a case. My concern is SSA is putting quantity ahead 
of quality.

    If confirmed, will you work with Congress and other stakeholders to 
determine the time required for an SSA ALJ to adjudicate a case and 
abandon arbitrary quotas?

    Answer. I understand that the ALJs play a critical role in making 
sure claimants get the public service they deserve. As I said during 
the hearing, improving the disability adjudication process, including 
reducing wait times and appeals backlogs, is one of my top priorities, 
and I am committed to reviewing the entire disability adjudication 
process from start to finish. An important part of this review will be 
to look at increasing efficiencies in the hearings process.

    Question. The Social Security Act created the SSA as an independent 
agency within the Federal Government charged with providing critical 
benefits to recipients. Projected solvency and trust fund issues have 
prompted many to advocate for privatization, reduction of benefits, and 
delayed eligibility. Notable proponents of such ideas include the Bush 
White House and the Manhattan Institute, both of which you have been 
affiliated with. In your responses to the committee's concerns, you 
indicated that you would leave policymaking to the legislators and the 
Treasury Department.

    What does the independence of the agency mean to you?

    Answer. As I mentioned at the hearing, I will put the agency's 
mission and those we serve ahead of all other interests. The 
independence of the agency means I will not allow politics to interfere 
with the fundamental mission of the agency, which is to serve the 
public.

    Question. How do you envision your responsibilities with regards to 
Congress?

    Answer. As I said during the hearing, if confirmed, my focus will 
be on improving service to the beneficiaries. To that end, I am 
committed to working in a transparent manner with Congress.

    Question. Can you commit to not taking any actions that, while 
within the scope of your authority, would seek to build a case for 
privatization and similar policies?

    If confirmed as Commissioner, my focus will be on managing the 
agency, serving the millions of Social Security beneficiaries and the 
American public, and administering the programs as designed by 
Congress. I believe issues related to privatization or reforming the 
programs should be left to the Treasury Department and the legislative 
branch.

    Question. While provisions in specific retirement security bills do 
not always impact the SSA's mission, I believe that we need to consider 
retirement policy holistically. Social Security is a critical pillar of 
many American's financial security in retirement. It's my hope that we 
will be able to agree on helpful changes to retirement policy both in 
this Congress and going forward.

    Should you be confirmed, will you commit to working with Congress 
to help provide expertise and move bipartisan retirement security 
legislation?

    Answer. If confirmed, I will focus on improving the services 
provided to the beneficiaries. I believe that policy issues such as 
legislation on retirement security should be left to the legislative 
branch. However, I would provide assistance regarding the technical 
aspects of proposals, if I am confirmed.

    Question. Federal law requires agencies to bargain in good faith 
with the unions representing their workforce--an obligation that the 
President cannot overturn by executive order. If confirmed, the Senate 
expects you to follow the law. In your response to the letter Senator 
Van Hollen and I sent you voicing our concerns, you noted that the 
executive orders had been struck down. I would like to stress however 
that the administration is appealing.

    Will you hold SSA to honor its collective bargaining agreements by 
rescinding the unilateral changes SSA has made, and not make further 
unilateral changes?

    Will you hold SSA to honor the terms of expired collective 
bargaining agreements until reaching a new agreement, by rescinding 
unilateral changes and not making further unilateral changes?

    If SSA and its workforce seek to negotiate a new collective 
bargaining agreement, will you commit to bargaining in good faith with 
the unions representing SSA's workforce, and do everything in your 
power to reach an agreement without resorting to the Federal Service?

    Answer. If confirmed, I will follow the law and act transparently 
and in good faith when working with the public sector unions at the 
agency.

    My record at the FRTIB demonstrates my dedication to transparency 
with organizations that represent Federal employees. I am very proud 
that all 14 Federal unions wrote to then President-elect Obama to 
request that I remain at the Board as Chairman after President Bush's 
term expired.

                                 ______
                                 
            Questions Submitted by Hon. Robert P. Casey, Jr.
    Question. The proposal by SSA to reinstitute the reconsideration 
step in 10 States' disability appeals processes, including 
Pennsylvania's, will add an average of 100 days to many applicants' 
already unacceptably long wait times. In Pennsylvania alone, SSA's own 
analysis shows that roughly 20,000 individuals will see their wait 
times increased. All seven field processing offices in Pennsylvania 
already average more than 600 days to make a final determination 
regarding a disability claim. One office in Philadelphia already takes 
an average of 700 days, or nearly 2 years, to make a final 
determination.

    Will you commit to delaying the reinstitution of the 
reconsideration step in the disability appeals process until SSA has 
identified a process to do so that will not harm any claimants in 
Pennsylvania or any other State by lengthening applicants' decision 
wait times?

    Answer. I am aware of the issues regarding reinstating 
reconsideration in the 10 prototype States. The disability wait times 
and backlogs are unacceptable, and I know the agency and Congress has 
been dealing with these issues for some time. If I am confirmed, one of 
my top priorities will be to review the disability adjudication process 
at all levels, from start to finish, and to work with agency experts 
and other stakeholders to explore options for improving the process 
while being mindful of agency resources and taxpayer dollars

    Question. As SSA has proceeded with its plan to reinstitute 
reconsideration into the disability appeals process, it has repeatedly 
avoided providing Congress with complete information regarding the full 
effects of this change. Specifically, at multiple briefings with 
congressional staff, SSA representatives avoided providing information 
on claimants that will have to wait longer to receive an eligibility 
decision due to the reintroduction of reconsideration. SSA 
representatives presented projections illustrating what they view as 
the benefits of this change, but did not present information from the 
same projections showing its negative effects until questioned about 
these projections by congressional staff.

    Will you confirm that SSA's planned reinstitution of the 
reconsideration step in 10 States' disability appeals process will 
immediately result in longer decision wait times for the majority of 
impacted applicants, causing them harm?

    Will you commit, if approved to be Commissioner, to briefings to 
congressional offices from SSA staff that provide full information 
regarding policy decisions proposed by the SSA?

    Answer. Pending the outcome of the Senate's consideration of my 
nomination, I have had limited interaction with the agency and cannot 
provide specific information regarding the effects of reinstating the 
reconsideration step in the ten prototype States. If confirmed, I will 
commit to working with you and Congress in a transparent way to ensure 
we serve claimants and beneficiaries as best we can.

    Question. During our meeting, I asked about working with my office 
and other Senate offices. Making major administrative decisions about 
benefits has an immediate impact on the constituents I and other 
Senators serve.

    Will you commit to working with my office when you plan to 
implement administrative changes that will have an effect on claimants 
of any SSA program, including contacting my staff about plans for new 
procedures and briefing them at the outset so we can work 
collaboratively to support processes that will benefit all 
constituents?

    Answer. Serving the public will be my primary focus, if confirmed. 
I believe that a critical element to such service is working with 
Congress in a transparent way. I will be transparent with Congress, 
including through briefings, on administrative changes that are likely 
to have a significant effect on programs.

    Question. For the past 2 decades, there has been an extensive 
history of the SSA Commissioner and senior staff meeting, on a regular 
basis, with constituent and advocacy groups of the title XVI (SSI) and 
title II (SSDI) claimants. When held, these meetings have been very 
productive and have led to program efficiencies and reforms. For the 
past 18 months, these meetings have been discontinued.

    Will you commit to reinstituting these meetings on a regular basis?

    Answer. I think transparency is an important aspect of effective 
agency management and program administration. If confirmed, I will 
assess the frequency with which meetings with the advocacy community 
and other stakeholders should take place.

    Question. At the Finance Committee hearing held on October 2, 2018, 
you indicated that, if confirmed, you intend on reviewing the entire 
disability application and appeals process.

    What specifically do you view as the central problems with this 
process that need to be addressed?

    What criteria would you use to evaluate the steps in this process 
and any potential changes to this process?

    Can you commit to not making any changes to the disability 
application and appeals process that would reduce the number of 
individuals that are eligible for disability benefits that receive 
them?

    In working to reduce hearing backlogs and wait times, what specific 
goals and deadlines would you put in place and how would you ensure SSA 
meets these goals and deadlines?

    Do you have any intention of making changes to SSA operations that 
would impact individuals who have already been deemed eligible for 
disability benefits and have already begun receiving them, and if so, 
what would those be?

    Answer. If confirmed, I do plan to review the entire disability 
adjudication process from start to finish, to address the longstanding 
problems of disability wait times and backlogs. My goal is to improve 
service and to make the right decision as early as possible in the 
process. I believe the disability program and disability determination 
processes should be modern and should reflect today's job market, as 
well as technological changes and medical advances. I intend to make 
the program more efficient.

    I am aware that Congress provided funding for the agency to reduce 
the hearings backlog. If confirmed, I will review the agency's backlog 
reduction plan to ensure these additional resources are being used 
wisely, and will make adjustments as needed.

    Question. In-person services at Social Security field offices are 
essential to many seniors and people with disabilities living in 
Pennsylvania and throughout the Nation. In many rural areas of 
Pennsylvania, in particular, access to broadband Internet is limited 
and in-person services cannot be easily replaced by online services.

    Will you commit to working to keep Social Security field offices 
open and to maintaining the critical in-person services provided by 
these field offices?

    Will you commit to having SSA keep members of Congress informed 
about any potential field office closures or relocations that would 
impact their constituents and to do so before SSA finalizes any 
decision on the future of a field office?

    How will you ensure that, as SSA expands the services it provides 
online, it continues to provide essential services and information to 
individuals who may not have reliable Internet access or who may not 
use the Internet?

    Answer. I understand the important role local offices play in 
delivering service and maintaining personal contact with the public. I 
also understand the important role that online services play. To 
provide the best service to the public, we have to have the right 
balance of services. If confirmed, I plan to review the agency's 
customer service strategies to ensure we have that balance.

    Question. SSA's workload is increasing rapidly as the Baby Boomer 
generation moves into retirement, and the agency's services are more 
important than ever. I have repeatedly pushed to provide SSA with the 
additional administrative funding it needs to maintain and improve 
critical services and eliminate unacceptable backlogs.

    Will you commit to being transparent and forthcoming with Congress 
about the level of administrative funding SSA needs to meet all of its 
statutory obligations and eliminate backlogs?

    If you believe SSA needs additional resources to fulfill its 
mission and maintain essential services, will you communicate that need 
to Congress?

    Answer. Yes, I will be transparent and forthcoming about the 
agency's funding needs. I believe in efficient, timely and accurate 
service, and protecting taxpayers' hard-earned dollars through the 
effective management of Social Security programs. If confirmed, I will 
look at the agency's budget and its workloads to ensure resources are 
spent wisely. If I find that additional resources are warranted, I will 
inform Congress.

    Question. At the Finance Committee hearing held on October 2, 2018, 
you indicated that, if confirmed, you would review the management 
structure and management practices at SSA.

    What criteria would you use to evaluate whether management 
structures and practices are operating successfully?

    What specific changes, if any, are you considering making to these 
management structures and practices?

    Will you commit to working with and consulting with the employees 
of SSA and the unions that represent them?

    Answer. If confirmed, I will review the management structure in 
detail. While I cannot outline specific criteria at this time, my 
primary focus will be on serving beneficiaries and tackling the three 
key challenges the agency faces: improving the disability adjudication 
process, including reducing wait times and appeals backlogs; 
modernizing the IT infrastructure; and increasing executive and 
management accountability. Any changes made to the management structure 
will be transparent and in service of meeting these challenges.

    Regarding the unions and employees at SSA, I am committed to 
working with all stakeholders to ensure we serve the public as best we 
can.

    Question. In addition to processing Social Security disability and 
retirement benefits, SSA is responsible for several key Medicare 
functions, including providing basic education about when and how to 
sign up for Medicare and processing Medicare enrollment.

    Increasingly, people new to Medicare are delaying retirement beyond 
age 65. Without adequate, advance notification, these individuals often 
lack sufficient information on when and how to sign up for Medicare. 
The consequences of enrollment missteps, particularly in Medicare Part 
B, can be significant and may include lifetime late enrollment 
penalties as well as lengthy gaps in coverage.

    Will you commit to an evaluation of SSA's processes and procedures 
for educating individuals approaching Medicare eligibility about basic 
Medicare enrollment rules, including how Medicare benefits coordinate 
with other forms of insurance, Part B enrollment periods and coverage 
start dates and eligibility for and enrollment in Medicare low-income 
support programs?

    Will you commit to working with my office to identify opportunities 
to strengthen notification and resources for individuals nearing 
Medicare eligibility?

    How will you ensure that SSA will appropriately balance online 
educational initiatives pertaining to Medicare enrollment with both 
paper mailings and in-person assistance?

    Will you provide information to my office about the resources made 
available by the Centers for Medicare and Medicaid Services to SSA to 
carry out the agency's functions related to Medicare, including those 
related to enrollment and the administration of low-income programs? 
And, will you provide information on any additional resources the 
agency might need to improve upon those functions?

    Answer. I appreciate your questions, which illustrate the 
historical relationship between Social Security and health care, and 
specifically between SSA and the Centers for Medicare and Medicaid 
Services (CMS). If confirmed, I will work with Congress and the 
Administrator of CMS on ways to better educate the public about 
Medicare enrollment.

    Question. Created through Federal law, equitable relief is an 
administrative process that allows people with Medicare to request 
relief from SSA in the form of immediate or retroactive enrollment into 
Part B and/or the elimination of a Medicare Part B Late Enrollment 
Penalty (LEP). It is my understanding that SSA does not currently 
collect or retain information on equitable relief cases, including the 
number of cases processed, the outcomes of these requests or 
information on the basis for these requests.

    Will you commit to collecting basic, State-by-State data on 
equitable relief cases (including the number requested, the outcome of 
the requests, and the basis for requests) and ensure that data is made 
available to my office?

    Will you ensure this data collection process includes information 
on current and former Marketplace enrollees who seek time-limited 
equitable relief, a process recently extended by CMS through September 
30, 2019?

    Will you provide my office with information on how SSA manages, 
processes and decides equitable relief requests?

    Will you provide information to my office on the extent to which 
SSA trains field office staff regarding cases of equitable relief and 
special enrollment periods?

    Answer. I cannot provide answers to your specific questions 
regarding equitable relief policies and practices, or the exact data 
SSA maintains regarding equitable relief requests. If confirmed, I will 
review the data SSA collects and maintains to determine whether it 
addresses your data requests.

                                 ______
                                 
               Questions Submitted by Hon. Mark R. Warner
    Question. Key provisions in the President's three executive orders 
undermining Federal worker protections were struck down by a Federal 
court. At the Social Security Administration, how do you intend to 
comply with the court's decision finding that the President's EOs were 
unlawful? Will you work with the Federal employee unions to ensure that 
their collective bargaining rights are being respected?

    Answer. If I am confirmed as Commissioner, I will follow the law 
and the court order, and act transparently and in good faith when 
working with the public-sector unions at the agency.

    My record at the FRTIB demonstrates my dedication to transparency 
with organizations that represent Federal employees. I am very proud 
that all 14 Federal unions wrote to then President-elect Obama to 
request that I remain at the Board as Chairman after President Bush's 
term expired.

    Question. The Social Security Administration recently closed many 
field offices, making it harder for older and disabled Americans to get 
the assistance they need. This includes an SSA field office in 
Arlington, and Senator Kaine and I have asked the inspector general at 
SSA to look into whether all appropriate laws and procedures were 
followed. How do you intend to ensure that people who need in-person 
assistance, but are limited in their ability to travel long distances 
to far-off field office, are able to access these resources?

    Answer. Serving the public has always been, and will continue to 
be, my primary focus. I plan to review the agency's service delivery 
strategies and how they affect access to in-person services.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    The Finance Committee meets this morning to consider the nomination 
of Andrew Saul to serve as Commissioner of the Social Security 
Administration. It goes without saying that this position is one of the 
most important posts in the Federal Government. It's responsible for 
administering benefits to over 69 million seniors, people with 
disabilities, and other Americans who earned their Social Security 
after working for years and paying into the program with each paycheck.

    Mr. Saul's nomination comes before the committee at a critical 
moment. Middle-class paychecks aren't keeping up with rising living 
expenses and health-care costs, making saving for retirement even 
harder for many workers. That means Social Security is more important 
than ever when it comes to guaranteeing all Americans a secure 
retirement without worrying about financial destitution.

    That's especially true for women, who in many circumstances are 
working multiple jobs while also raising children, sometimes on their 
own. A recent study showed that women have an average of half the 
retirement savings as men. That gap means hard times for women in their 
later years: women aged 65 and older are 80 percent more likely than 
men to be in poverty.

    My parents were divorced when I was young, and to a great extent my 
mother raised my late brother and I. Despite having a master's degree, 
she always seemed to take home less pay than men doing the same job. 
She wasn't alone. That's another reason why it is so important that 
women get a fair shake when it comes to retirement.

    When it comes to the future of Social Security, the program can pay 
full benefits through 2034 and 79 percent of benefits after 2034. There 
has been an effort from Trump's top economic advisers on down to 
portray this as a ``crisis'' and insist that drastic changes are needed 
and benefits have to be cut.

    Let me be clear colleagues: cuts to Social Security are the exact 
opposite of what's needed now. Increasing the retirement age, 
transforming Social Security from a secure defined benefit to a 
privatized scheme that puts vital benefits at risk, and more--these 
harmful ideas will make it harder for seniors and vulnerable Americans 
to live full lives after years of work. I will go to the mat to prevent 
these harmful attacks on Social Security. Instead, Congress should 
focus on ways to improve the program and ensure all Americans can enjoy 
a secure retirement.

    If Mr. Saul is confirmed to a full 6-year term next Congress, he 
will be managing the nuts and bolts of Social Security as this 
important debate takes place. But there is already work to be done 
today to ensure Social Security works for Americans who count on its 
benefits right now.

    Today, too many who are seeking benefits are stuck in bureaucratic 
purgatory--nearly a million Americans are waiting as Social Security 
considers appeals of their eligibility. This backlog of disability 
cases means people often wait more than a year or longer for a 
decision. That is unacceptable.

    Recently Congress has done better when it comes to funding the 
agency, and the backlog has improved. I want to thank Senator Brown and 
others for pushing hard for these resources in the recent 
appropriations bills, but it will be important to see results before 
anybody declares ``mission accomplished.'' Too many Americans are 
waiting for help instead of getting the service they paid for and 
deserve. The Commissioner should make it very clear--perhaps with a 
weekly update on the front page of SSA's website--about the average 
wait time for our constituents.

    The Social Security Administration has made great strides to 
modernize its information technology. Earlier this year the Government 
Accountability Office said SSA had made the most progress of any agency 
when it comes to improving and managing its IT.

    This is the critical task for every Federal agency at a time when 
data theft is rampant--more vulnerabilities and opportunities for 
cyber-crime are cropping up every day. Americans have made it clear 
that privacy is paramount, and Social Security can't fall short when it 
comes to protecting personal information. On a positive note, the 
agency's Disability Case Processing System has received great reviews 
from the employees that use the system every day to help people. But to 
paraphrase President Lincoln, a ``bath of public opinion'' is needed to 
verify that it is leading to better service and less waiting.

    If confirmed, Mr. Saul will be the first confirmed head of Social 
Security since 2013. It's a shame there has been such a delay, and that 
delay has taken its toll. Without a confirmed leader, the agency cannot 
create and execute a long-term vision of how to improve the program for 
beneficiaries. On a more practical level, an acting leader cannot hire 
qualified people from outside the agency into Senior Executive Service 
positions, such as the person in charge of SSA's IT security or the 
head of the agency's 1,245 field offices. Americans deserve the best 
talent at the Social Security Administration, and this artificial 
barrier should be removed as soon as possible.

    Before I conclude, I want to address the issue the chairman raised 
about taking up only the first nomination. The White House nominated 
Mr. Saul for two consecutive terms, one for the remainder of the 
current term ending on January 19, 2019, and one for the succeeding 
term beginning the next day. If the Finance Committee were to vote on 
the second nomination, it would be acting during this Congress to fill 
a vacancy that does not occur until next Congress. That would upend the 
notion that Senators advise and consent on the contemporaneous 
nominations of officials who will be running key parts of the Federal 
Government. It also would be unprecedented in this committee, and could 
expose the actions of the Commissioner to legal challenge.

    Given these concerns, Chairman Hatch and I have reached an 
agreement to wait to vote on that future term until next Congress. For 
my part, if Mr. Saul is confirmed this year, I will support taking up 
the second nomination without delay in the next Congress. I want to 
thank Mr. Saul for appearing before the committee today and for his 
willingness to serve.

                                 ______
                                 
                Additional Statement From Hon. Ron Wyden
    During the hearing on the nomination of Andrew Saul, Chairman Hatch 
said that, under the Obama administration, SSA had, during budget 
discussions, ``manipulated and cherry-picked data about SSA's budget to 
the authorizing committees, appropriators, and various advocacy 
groups.''

    I understand that the chairman feels strongly about this issue, 
but, respectfully, I do not share his view. For many years, I and other 
members of the Finance Committee have relied on accurate data from SSA 
to understand the agency's needs. In this case, I am comfortable with 
the data that was provided to support the proposition that SSA's core 
operating budget has shrunk by 10 percent since 2010 after adjusting 
for inflation. Further, the Congressional Research Service has reached 
a similar conclusion, writing, ``When adjusted for price and wage 
growth over this period (Fiscal Year 2010 through Fiscal Year 2017), 
general LAE funding fell by 10 percent and 19 percent, respectively.''

                                 ______
                                 

                             Communication

                              ----------                              


                        Consumer First Coalition

                      2550 M Street, NW, 8th Floor

                          Washington, DC 20037

                https://www.consumerfirstcoalition.org/

October 2, 2018

The Honorable Orrin Hatch           The Honorable Ron Wyden
Chairman                            Ranking Member
U.S. Senate                         U.S. Senate
Committee on Finance                Committee on Finance
Washington, DC 20510                Washington, DC 20510

Dear Chairman Hatch and Ranking Member Wyden:

On behalf of the members of the Consumer First Coalition (CFC), I am 
pleased to submit this letter for the record for your Committee hearing 
to consider the nomination of Andrew M. Saul, of New York, to be 
Commissioner of Social Security for the term expiring January 19, 2019.

CFC represents a group of leading financial services companies 
committed to combating new forms of fraud, protecting identities, and 
upholding the privacy protections that are a hallmark of the financial 
services industry. To meet these objectives and ensure consumer data 
and accounts are kept safe, the financial sector is constantly evolving 
and adapting to meet the dynamic challenges posed by sophisticated 
cyber-criminals. Often, the best solution requires close collaboration 
among public and private stakeholders.

Such is the case with efforts to combat synthetic identity fraud, a 
particularly egregious form of identity theft that most often 
victimizes children. Earlier this year, legislation was introduced to 
address this type of fraud--the Protecting Children From Identity Theft 
Act, S. 2498, sponsored by Senators Tim Scott (R-SC), Claire McCaskill 
(D-MO), Bill Cassidy (R-LA) and Gary Peters (D-MI)--and a similar 
version was signed into law as Section 215 of S. 2155, the Economic 
Growth, Regulatory Relief, and Consumer Protection Act. This new law 
directs the Social Security Administration (SSA) to modernize its 
system that provides the financial industry the ability to verify 
whether a given name, date of birth, and Social Security number (SSN) 
match with what the SSA has on file. As part of a creditor's 
underwriting and fraud review of a new applicant, this piece of 
information can help prevent synthetic identities--which pair valid 
SSNs with fabricated personal information in order to create a 
``synthetic'' credit history--from getting off the ground and harming 
the consumers whose SSNs were compromised.

Enacting this measure was a significant victory for consumers. Congress 
and the new SSA Commissioner must now ensure implementation is a 
success as well. CFC and other industry stakeholders are actively 
engaged with SSA in positive discussions to drive the implementation 
process forward. For example, while Congress specifically addressed the 
importance of privacy and data security for users of the SSA's 
verification system, it did not intend to deputize the SSA to regulate 
financial institutions. Those regulators already exist (e.g., Office of 
the Comptroller of the Currency, Federal Deposit Insurance Corporation, 
Board of Governors of the Federal Reserve System), and we are working 
with them to ensure that the legal protections afforded to the SSN 
itself are applied to SSA's confirmation of the SSN's validity. 
Financial institutions are regulated and examined for compliance to the 
highest standards of privacy and cybersecurity. We are hopeful the 
outcome will address the important concerns of Congress and the SSA, 
but not create duplicative compliance burdens for financial 
institutions.

Also, as you know, the new law gives the Commissioner of SSA broad 
latitude to set fees and determine costs for users of the system on 
both an ongoing basis to sustain the system, and to meet any system 
build or expansion demands placed on SSA by the new law. Without 
question, meeting the requirements of the law will result in 
significantly increased volume and a greater need for reliability and 
system up-time, which will require an investment by users of the system 
to achieve.

While the financial industry recognizes the importance of implementing 
a functional system that achieves Congress's goal of combating 
synthetic identity fraud, I would stress the importance to the 
Committee of ensuring costs to users are not so high as to derail both 
the utility of the system and Congress's goal of protecting consumers 
from fraud. Modern technologies such as scalable system architecture 
and the increasingly common use of robust application programming 
interfaces (APIs) to facilitate real-time data exchange are just some 
of the methods and tools at SSA's disposal that can lead to a cost-
effective yet highly sophisticated system that achieves all of 
Congress's goals.

In conclusion, thank you for holding this hearing today and taking an 
important step toward confirming a new leader of the SSA. While 
developing this verification system is just a small piece of the 
broader SSA IT modernization effort the Commissioner will need to see 
through to completion, it is one that has the potential to benefit 
millions of Americans--especially children--who might otherwise become 
victims of synthetic identity fraud. CFC is committed to working with 
SSA to successfully implement this new law by leveraging member firms' 
deep knowledge of privacy and data security compliance, as well as 
technological expertise that comes from building the most cutting-edge 
financial services platforms in the country.

Sincerely,

Jason Kratovil
Executive Director

                                  [all]


</pre></body></html>
